Report No. DODIG-2012-023        November 21, 2011






   Management Improvements Needed in Commander's 

      Emergency Response Program in Afghanistan


Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ARCENT                        U.S. Army Central
CCO                           Contingency Contracting Officer
CERP                          Commander’s Emergency Response Program
CIDNE                         Combined Information Data Network Exchange
C-JTSCC                       CENTCOM-Joint Theater Support Contracting Command
DFAS                          Defense Finance and Accounting Service
DoD FMR                       DoD Financial Management Regulation
FAR                           Federal Acquisition Regulation
IG                            Inspector General
MAAWS-Afghanistan             Money As A Weapon System-Afghanistan
ODS                           Operational Data Store
PPO                           Project Purchasing Officer
RM                            Resource Manager
RMT                           Resource Management Tool
STANFINS                      Standard Financial System
USCENTCOM                     U.S. Central Command
USFOR-A                       U.S. Forces-Afghanistan
                                 INSPECTOR GENERAL 

                                DEPARTME NT OF DEFEN SE 

                                4800 MARK CE NTER DRIVE 

                             ALEXANDRI A, VIRG INIA 22350-1500 




                                                                          November 21, 20 II

MEMORAN DUM FOR COMMANDING GENERAL, U.S. CENTRAL COMMAN D
                COMMANDING GENERA L, U.S . ARMY CENTRAL
                COMMANDING GENERAL, U. S. FORCES -AFGHAN ISTAN

SUBJECT: 	 Management Improvements Needed in Commander's Emergency Response
           Program in Afghanistan (Report No. DODlG -20I 2-023 )

We are providing this report for review and comment. U.S. Central Conulland
(US CENTCOM) and U.S. Forces- Afghanistan (USFOR-A) controls over the
Conmlander's Emergency Response Program (CERP) contract payments and reporting
were not adequate to maintain and rep0l1 reliable and meaningfi.ll CERP data . As of
January 2011 , 000 had allocated about $3 .2 billion in CERP fund s to support
Afghanistan operations, of which 0 00 obli gated $2 billion and disbursed $ 1.5 bi Ili on.
We considered management comments on a draft of this report when preparing the final
report.

DoD Directi ve 7650. 3 requires that recommendations be resol ved promptly. The
response from USFOR-A to Recommendations A.1 , A.2, A. 3, A.4, and B.l , and the
CENTCOM-Joint Theater Support Contracting Command (C-JTSCC), Chief of Staff's
comments on ReCOl1Ullendation C. I were responsive and require no fi.n1her COl1Ullent.
The C-JTS CC, Chief of Staff s comments on Recommendations C.2, 0.1 , and 0 .2 and
USFOR-A's comments on Reconullendations B.2 and C.2 were not responsive. Tn
addition, the USFOR-A conUllents on Recommendation B.3, which was revised for
clarity, were pal1ially responsive. Therefore, we request additional comments from
USFOR-A on Recommendation B.2, revised Recommendation B.3, and
Recommendation C.2 and additional comments from USCENTCOM on
Reconunendations C.2, 0 .1, and 0 .2 by December 2 1, 2011.

Ifpossible, send a .pd f ti le containing yo ur conUllents to audfmr!i/l,dodi g.mi l. Copies of
your comments must have the actual signature of the authori zing official for your
organization. We are unable to accept the /Si gned/ symbol in place of the actual
signature. If yo u arrange to send class ified cOl1ll11ents electronicall y, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We apprec iate the co urtesies extended to the staff. Please direct questions to me at
(703 ) 601 -5868 (DSN 664-5 868).




                                               Patricia A. Marsh, CPA
                                               Assistant Inspector General
                                               Financial Mallagement and Reporting
    Report No. DODIG-2012-023 (Project No. D2010-D000FL-0276.000)                      November 21, 2011

                  Results in Brief: Management Improvements
                  Needed in Commander’s Emergency
                  Response Program in Afghanistan
What We Did                                                 unauthorized sites, or unauthorized advance payments.
The objective of the audit was to determine whether         Also, DoD acquisition policy lacked a requirement for
controls over the Commander’s Emergency Response            contracts to be written and paid in the same currency.
Program (CERP) payments made to support                     As a result, USFOR-A had potentially up to
Afghanistan operations were adequate. Specifically,         $38.4 million in outstanding unliquidated
we reviewed the controls to ensure that contract            obligations, improper payments, and high-risk CERP
payments were proper and that complete, accurate,           advance payments, and a high risk for currency
and meaningful data were reported to the                    exchange rate fraud and overpaying or underpaying
decisionmakers responsible for managing CERP. U.S.          Afghanistan vendors.
Forces-Afghanistan (USFOR-A) processed more than
8,509 CERP payment transactions, totaling                   What We Recommend
$486 million, between October 2008 and                      USCENTCOM and USFOR-A should establish and
February 2010.                                              implement policy and training to improve controls
                                                            over CERP contract payments and reporting.
What We Found                                               USCENTCOM should review contracting officials’
U.S. Central Command (USCENTCOM) and                        actions to determine whether administrative action is
USFOR-A controls over CERP contract payments and            warranted.
reporting were not adequate. Specifically, for CERP         USFOR-A needs to quickly improve the quality of
payments made between October 2008 and                      CERP data provided to Congress, USCENTCOM,
February 2010, USCENTCOM and USFOR-A did                    and its field commanders. Higher quality data will
not:                                                        improve key stakeholders’ ability to manage CERP
 maintain and report reliable and meaningful CERP          projects, assess CERP program effectiveness, and
     data for 6,157 of 8,509 CERP payments*;                ensure that CERP funds are used for the most
	 deobligate at least $16.7 million of unused CERP         beneficial and sustainable projects.
     project funds for 108 closed or terminated CERP
     projects;                                              Although USFOR-A established a monthly report to
	 identify or prevent $1.7 million of improper             improve visibility over CERP project closeouts,
     payments on 13 CERP projects;                          additional procedures are needed to ensure that
	 identify or prevent at least 30 unauthorized             CERP projects are properly closed out and
     advance payments, totaling $3.4 million, made to       outstanding funds deobligated.
     vendors on CERP contracts; and
	 mitigate the risk of overpayments and                    Management Comments and
     underpayments because of currency rate                 Our Response
     fluctuations.                                          The Executive Director, USCENTCOM IG, provided
                                                            consolidated USCENTCOM and USFOR-A
This occurred because USFOR-A did not issue                 comments, stating agreement with recommendations
guidance on recording and reconciling CERP data             on improving CERP data, controls over CERP
until May 2009 and did not properly train personnel         payments and reporting, and deobligating
on that guidance. USCENTCOM and USFOR-A did                 outstanding obligations. We request additional
not provide sufficient CERP contract oversight to           comments from USCENTCOM and USFOR-A on
prevent improper payments, payments from                    Recommendations B.2, B.3 (revised for clarity), C.2,
                                                            D.1, and D.2 related to contractor debt, advance
                                                            payments, and writing and paying contracts in the
*                                                           same currency. Please see the recommendations
 This is based on a projection. See Appendix C for
additional details.                                         table on the next page.

                                                        i
Report No. DODIG-2012-023 (Project No. D2010-D000FL-0276.000)    November 21, 2011

                          Recommendations Table

        Management                 Recommendations         No Additional Comments
                                  Requiring Comment                 Required
U.S. Central Command           C.2, D.1, D.2              C.1
U.S. Forces-Afghanistan        B.2, B.3, C.2              A.1, A.2, A.3, A.4, B.1


Please provide comments by December 21, 2011.




                                         ii
Table of Contents
Introduction                                                                1

      Audit Objectives                                                      1

      Background on CERP                                                    1

      Improvements Needed in Managing CERP                                  4


Finding A. USFOR-A Did Not Maintain Reliable and Meaningful Data for
Managing Afghanistan CERP                                                   5
      CERP Reporting Requirements                                           5

      CIDNE and CERP Checkbook Data Were Inaccurate, Incomplete, 

         and Inconsistent                                                   6

      USFOR-A Lacked CERP Guidance and Training                             9

      Stakeholders Need Accurate Data to Make Informed Decisions 
         10
      DoD Initiative to Automate CERP Checkbook                            11 

      Recommendations, Management Comments, and Our Response               11 


Finding B. USFOR-A Did Not Deobligate Unused CERP Project Funds and 

Made Improper CERP Payments                                                14 

      Laws, Regulations, and Guidance                                      14 

      Outstanding Obligations and Improper Payments 
                      15
      Inadequate CERP Closeout Procedures and Data                         16 

      Unused CERP Funds Put to Better Use                                  19 

      USFOR-A Took Action on Open Obligations                              19 

      Revised Recommendation 
                                             20
      Recommendations, Management Comments, and Our Response               20 


Finding C. USCENTCOM and USFOR-A Made Unauthorized Advance 

Payments on CERP Contracts                                                 22 

      CERP Contract Oversight                                              22 

      Advance Payment Guidance                                             22 

      Unauthorized Advance Payments                                        23 

      Contracting Officials Were Not Following CERP Guidance 
             25
      No Consideration for CERP Advance Payments                           25 

      Recommendations, Management Comments, and Our Response               26 


Finding D. Strengthening Controls for Foreign Currency Contract Payments   28


      Weaknesses in Foreign Currency Contract Payments                     28 

      Limited Federal and DoD Guidance on Contracting Using Foreign 

        Currency         
                                                 30
      High Risk of Improper Payments                                       30 

      USCENTCOM Partially Addressed Auditor Concerns                       31 

      Recommendations, Management Comments, and Our Response               32 

Appendices

      A. Audit Scope and Methodology 	                                     34 

             Use of Computer-Processed Data                                35 

             Use of Technical Assistance                                   35 

      B. Prior Audit Coverage of the Afghanistan Commander’s Emergency 

         Response Program                                                  36 

      C. Statistical Sampling Methodology 	                                38 

      D. CERP Project Categories 	                                         40 

      E. CERP Project Status Report 	                                      42 

      F. Unliquidated Obligations Memorandum and Management Response       43 

      G. Foreign Currency Fluctuation Memorandum and Management 

         Response                                                          58     

      H. CERP Roles and Responsibilities 	                                 63 

      I. CERP Reporting Diagram 	                                          65 

      J. Summary of Potential Monetary Benefits 	                          66 


Management Comments

U.S. Central Command and U.S. Forces-Afghanistan 	                         67 

Introduction
Audit Objectives
The overall objective of our audit was to determine whether the U.S. Army, U.S. Central
Command (USCENTCOM), and U.S. Forces-Afghanistan (USFOR-A) controls over
Commander’s Emergency Response Program (CERP) payments made to support
Afghanistan operations were adequate. Specifically, we reviewed whether the controls
ensured that CERP payments were proper and that complete, accurate, and meaningful
data were available to personnel responsible for CERP management. See Appendix A for
the audit scope and methodology and Appendix B for prior coverage related to the audit
objective.

Background on CERP
The Coalition Provisional Authority established CERP in 2003 to enable military
commanders to respond to urgent humanitarian relief requirements in Iraq and
Afghanistan. CERP projects are intended to benefit the local populace in areas such as
agriculture, education, health care, and sanitation until larger, more formal reconstruction
projects can be initiated. Commanders consider CERP vital for improving security and
implementing counterinsurgency operations because it is a critical tool for quickly
addressing humanitarian needs and supporting public infrastructure-building. See
Appendix D for examples of projects for which the DoD can use CERP funds.

In Afghanistan, DoD allocated about $3.2 billion in CERP funds as of February 2011, of
which DoD had obligated $2 billion and disbursed $1.5 billion. Table 1 provides a
breakout of Afghanistan CERP funding and execution through February 2011.

          Table 1. Afghanistan CERP Funding and Execution (in millions)
Fiscal Year         Allocation         Obligations          Disbursements
2004                         $40.0               $35.2                  $35.2
2005                         136.0               130.7                  130.7
2006                         215.0               158.3                  157.3
2007                         209.0               199.2                  178.2
2008                         488.3               428.6                  395.8
2009                         753.0               526.8                  414.9
2010                         955.0               335.4                  189.2
2011*                        400.0               169.5                   41.2
 Total                    $3,196.3            $1,983.7               $1,542.6
*October 2010 through February 2011.




                                             1


Roles and Responsibilities
The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, is
responsible for establishing, overseeing, and supervising the execution of CERP policies
and procedures. The Under Secretary is also responsible for reporting CERP activities
timely to congressional defense committees through the quarterly reports1 required under
section 1202(b) of the “National Defense Authorization Act for FY 2006,” January 6,
2006, as amended. The Secretary of the Army serves as executive agent for CERP and is
responsible for forwarding the quarterly reports to Congress and issuing detailed
procedures for military commanders to implement CERP consistent with applicable laws,
regulations, and guidance. For Afghanistan, those procedures are issued through
USCENTCOM and its subordinate commands, including USFOR-A.

The Commander, U.S. Army Central (ARCENT), is responsible for providing annual
program authority and funding for CERP projects to USFOR-A. ARCENT provides fund
status updates to the Secretary of the Army and USCENTCOM, as appropriate. The
Commander, USCENTCOM, is responsible for determining the appropriate allocation of
CERP funds among his subordinate commands. USFOR-A assigns personnel for CERP
project management functions such as project funding, execution, payment, and closure.
For information on the specific responsibilities of USFOR-A RMs, project managers,
project purchasing officers (PPO), and paying agents, see Appendix H.

Due to the importance of CERP to the DoD counterinsurgency strategy in Afghanistan, in
May 2010, the Deputy Secretary of Defense established the CERP Steering Committee to
provide clear direction on roles and responsibilities and senior-level oversight of CERP
activities.

Guidance
Federal and DoD guidance govern CERP fund availability and use. In October 2004,
Congress authorized CERP in section 1201 of the “Ronald W. Reagan National Defense
Authorization Act for FY 2005.” Congress has reauthorized CERP every year since.
Federal Appropriations Law provides the funding for CERP projects and directly
supports the Afghanistan counterinsurgency strategy. Public Law 111-383, “The Ike
Skelton National Defense Authorization Act for Fiscal Year 2011,” January 7, 2011,
reflected Congress’s concern that DoD was using CERP to fund large-scale projects in
support of its counterinsurgency strategy rather than for the original purpose, which was
to enable military commanders to implement small-scale projects to meet the urgent
humanitarian relief and reconstruction needs within their areas of responsibility. The Act
limited individual CERP projects to a maximum of $20 million and authorized the
creation of a new fund, the Afghanistan Infrastructure Fund, to be the primary source of
DoD funding for large-scale development and reconstruction projects in Afghanistan.

DoD developed guidance for managing CERP funding and execution at multiple levels.
DoD Regulation 7000.14-R, “DoD Financial Management Regulation” (DoD FMR),


1
    The quarterly reports detail the activities carried out under the CERP authority.


                                                         2


volume 12, chapter 27, assigns responsibilities for administering CERP; defines the
purposes for which U.S. appropriations or other funds provided for CERP may be
expended; and specifies the procedures for executing, managing, recording, and reporting
such expenditures. The Commander, USCENTCOM, and the Commander, ARCENT,
issue memoranda to USFOR-A specifying further guidance on the use of CERP funds.
Based on direction from USCENTCOM, USFOR-A developed USFOR-A
Publication 1-06, “Money As A Weapon System-Afghanistan” (MAAWS-Afghanistan),2
which provides specific roles and responsibilities over the use of CERP funds in
Afghanistan. Occasionally, theater commands issue fragmentary orders to supplement
other guidance in place to ensure strong CERP financial management. Prior to the
establishment of USFOR-A in October 2008, the Combined Joint Task Force-101 was
responsible for overseeing CERP and issued the Combined Joint Task Force-101 CERP
Standard Operating Procedure. This document established policies and procedures for
the execution of CERP.

Project Tracking
CERP projects were tracked using five systems: the Combined Information Data
Network Exchange (CIDNE), CERP Checkbook, the Resource Management Tool
(RMT), the Army Standard Financial System (STANFINS), and the service disbursing
system. CIDNE was a project management system used by USFOR-A to document and
monitor CERP project status from project nomination to project closure. CIDNE
contained information, such as the unit responsible for the project; the project document
reference number; the description of the project; the amounts committed, obligated, and
disbursed for the project; and the project status, including the projected completion date.
CERP Checkbook, RMT, and STANFINS were financial systems used by USFOR-A to
document CERP financial data. USFOR-A used CERP Checkbook to manually
consolidate financial information from RMT and STANFINS with project information
from CIDNE. CERP Checkbook tracked project funds for commitments, obligations, and
disbursement amounts. CERP Checkbook assisted USFOR-A in complying with
congressional reporting requirements identified in the DoD FMR, volume 12, chapter 27.
RMT was the system used to commit projects and transmit obligations into STANFINS.
STANFINS tracked obligations and disbursements against the CERP projects. Service
disbursing system was the system that fed disbursement data into STANFINS.
USFOR-A accessed STANFINS data through the Operational Data Store (ODS), a
system that allows Army financial managers to retrieve, review, and update financial
payment information.

To comply with the DoD FMR on congressional reporting, USFOR-A compiled the
CERP Checkbook data and provided it to ARCENT. ARCENT then reviewed the data
and provided it to USCENTCOM for endorsement. The data flowed from
USCENTCOM to the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
DoD, and to Congress. Appendix I shows the flow of CERP financial and project
information.

2
 Published in May 2009; MAAWS-Afghanistan was updated in December 2009 and February 2011. Our
audit work was done under the December 2009 guidance.


                                              3


Improvements Needed in Managing CERP
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses related to maintaining and reporting reliable CERP data, preventing advance
payments on CERP contracts, deobligating funds for closed or terminated CERP projects,
and mitigating the risk of overpayments and underpayments because of currency
fluctuations. We will provide a copy of the report to the senior DoD officials responsible
for managing CERP.




                                            4


Finding A. USFOR-A Did Not Maintain
Reliable and Meaningful Data for Managing
Afghanistan CERP
USFOR-A personnel did not maintain reliable and meaningful CERP financial or project
data in CIDNE or CERP Checkbook. Specifically, CIDNE and CERP Checkbook
contained inaccurate, incomplete, or inconsistent financial or project data for 6,157 of
8,509 CERP payments3 made between October 2008 and February 2010. This occurred
because, prior to May 2009, USFOR-A personnel did not have guidance on recording and
reconciling CERP project data in CIDNE and CERP Checkbook. Although USFOR-A
personnel issued the MAAWS-Afghanistan in May 2009 that contained such guidance,
the Command did not effectively train program managers, project managers, project
purchasing officers (PPOs), Civil-Military Operations personnel, and RMs to ensure its
effective implementation. Without improving the quality of CERP data, USFOR-A
personnel cannot provide key stakeholders, to include Congress, USCENTCOM, and its
commanders, with the information crucial to properly managing and assessing the
effectiveness of the Afghanistan CERP projects and to ensuring that funds are used for
the most beneficial and sustainable projects.

CERP Reporting Requirements
Public Law 109-163, “National Defense Authorization Act for FY 2006,” January 6,
2006, section 1202, as amended, requires the Secretary of Defense to submit a quarterly
report on the source and use of CERP funds to the congressional defense committees.
The quarterly report provides CERP fund execution by project category. DoD FMR,
volume 12, chapter 27, specifies the categories eligible for CERP funding (see
Appendix D for a list of those categories). DoD FMR volume 12, chapter 27, also states
that the Army will complete, and submit monthly, a CERP Project Status Report to
USCENTCOM J-8; Commander, Multinational Force-Iraq and USFOR-A; and the Joint
Staff J-8. The DoD FMR specifies the required information for the CERP Project Status
Report (see Appendix E for a list of the required information). CERP Checkbook was the
source for the CERP Project Status Report that contains the information required by the
DoD FMR.

CERP Checkbook was a manually consolidated spreadsheet used by USFOR-A to report
CERP commitment, obligation, and disbursement amounts to DoD officials and Congress
on a monthly and quarterly basis, respectively. The information consolidated by CERP
Checkbook came from several sources (see Appendix I). The data in CERP Checkbook
was from the manual entry of data from CIDNE, RMT, and STANFINS. Manual data
entry errors or omissions can cause inaccurate, incomplete, and inconsistent CERP
information to flow into monthly and quarterly CERP reports. USFOR-A personnel used




3
    All numbers in Finding A are projected based on a statistical sample. See Appendix C for details.


                                                       5


CIDNE to track CERP projects from nomination to closure and turnover to the
Afghanistan government.

MAAWS-Afghanistan, December 2009, requires:

    		 proper documentation and continual monitoring of CERP projects from project
        nomination to closure in the CIDNE database,

    		 proper accounting and reporting of CERP funds to higher headquarters, and

    		 commanders to ensure personnel properly manage CERP projects and that CERP
        funds achieve maximum results.

MAAWS-Afghanistan also requires establishing performance objectives and monitoring
progress. Additionally, commanders must ensure that CERP funds are commensurate
with project accomplishments or performance metrics.

CIDNE and CERP Checkbook Data Were Inaccurate,
Incomplete, and Inconsistent
From October 2008 to February 2010, USFOR-A personnel did not maintain accurate,
complete, and consistent CIDNE and CERP Checkbook data for 6,157 of 8,509 CERP
payments. The universe of 8,509 payments represents 5,126 CERP projects. To
determine data reliability, we compared CERP
                                                    USFOR-A personnel did not
payment documentation4 with data in CIDNE
                                                 maintain accurate, complete, and
and CERP Checkbook for CERP payments
                                                   consistent CIDNE and CERP
made between October 2008 and
                                                    Checkbook data for 6,157 of
February 2010. Although our universe
                                                       8,509 CERP payments.
contained 8,509 CERP payments, data for 415
payments could not be located in CIDNE.

For the 8,509 CERP payments, CIDNE and CERP Checkbook included deficiencies for
6,157 of the payments.5 Specifically,

    		 project categories were inconsistent or inaccurate for 2,349 CERP payments;

    		 project locations were incomplete, inaccurate, or inconsistent for 1,604 CERP
        payments;

    		 project disbursement totals were incomplete for 4,660 CERP payments; and

    		 local national classifications were incomplete for 3,133 CERP payments.


4
  Payment documentation can include the payment voucher, contract, purchase request and commitment, 

invoice, receiving report, and other relevant supporting documents. 

5
  The sum of the individual deficiencies is greater than 6,157 because some payments had multiple 

deficiencies. 



                                                  6


Project Categories Were Inconsistent or Inaccurate
USFOR-A personnel did not maintain consistent or accurate project categories for
2,349 CERP payments.6 Specifically, the

    		 CIDNE project category did not match the CERP Checkbook project category for
        1,926 payments;

    		 CERP Checkbook project category did not match the project description found in
        the payment documentation for 962 payments; and

    		 bulk fund projects7 were not re-categorized once the specific category of 

        expenditure was known for 499 payments. 


The CERP project managers and Civil-Military Operations personnel did not record the
same project category location in CIDNE and CERP Checkbook for 1,926 of the CERP
payments. For example, payments had a CIDNE project category of Agriculture
Irrigation, but had a CERP Checkbook project category of Water and Sanitation. The
CERP program manager ensures the project documentation recorded by the project
manager is complete, correct, and recorded in CIDNE. Once the Commander approves
the project and funds are obligated, Civil-Military Operations personnel must enter and
track the project information in CERP Checkbook.

Civil-Military Operations personnel inaccurately recorded the project category for
962 payments in CERP Checkbook. To identify these errors, we compared the project
category recorded in CERP Checkbook with the payment documentation. For example,
Civil-Military Operations personnel erroneously recorded a CERP project for a bank
refurbishment and another project for repairs to an irrigation system as “Repair of Civic
and Cultural Facilities” in CERP Checkbook.

In addition, the project manager and Civil-Military Operations personnel did not
reclassify the project category for 499 bulk fund payments to identify the specific use of
the funds. According to the DoD FMR, for CERP projects using bulk funds, the initial
category should be “Other Urgent and Humanitarian or Reconstruction Projects.” Once
USFOR-A personnel disburse the funds, they should update CERP Checkbook and
CIDNE to identify the specific CERP project category and provide a detailed project
description for each completed project under the bulk funding. However, for the
499 bulk payments we reviewed, the project descriptions did not identify the specific use
of funds. For example, a project in CERP Checkbook had a project description of
“Commander’s Small Scale Project” with the category of “Other Urgent Humanitarian or
Reconstruction Projects.” However, the payment documentation showed that



6
  The sum of the individual deficiencies is greater than 2,349 because some payments had multiple
deficiencies.
7
  Commanders are authorized to approve advance bulk funds for condolence, battle damage, former
detainee, and Afghan hero payments and the Commander’s small-scale projects. Advance bulk funds are
lump sum withdrawals from the Finance Office made to a paying agent.


                                                  7


USFOR-A personnel used the funds for
compensation for battle damage and a canal          CERP stakeholders would not be
extension that they should have recorded as “Battle able to rely on data contained in
Damage Repair” and “Agriculture,” respectively.      CIDNE and CERP Checkbook
While these were proper uses of bulk funds, CERP     for decision making purposes.
stakeholders would not be able to rely on data
contained in CIDNE and CERP Checkbook for decision making purposes.

Project Locations Were Incomplete, Inaccurate, or Inconsistent
USFOR-A personnel did not maintain complete, accurate, or consistent project location
information for 1,604 CERP payments.8 Specifically:

    		 CIDNE project location information was incomplete for 304 of the payments, and
        inaccurate for another 310 payments;

    		 CERP Checkbook project location information was inaccurate for 754 payments;
        and

    		 CIDNE and CERP Checkbook contained inconsistent locations for 489 payments.

CERP project managers did not record the project location in CIDNE for 304 payments
and inaccurately recorded the CIDNE project location for an additional 310 payments.
For example, for one project, CIDNE reported the project location as Kunar Province;
however, the payment documentation listed the project location as Nuristan Province.

In addition, Civil-Military Operations personnel did not record accurate project location
information for 754 payments in CERP Checkbook. For these 754 payments, the
location in CERP Checkbook did not match the locations listed on the payment
documentation. For example, for one project, CERP Checkbook data showed that the
project location was in Kandahar Province, in southeast Afghanistan; however, the
payment documentation listed the location as Farah Province, in western Afghanistan.

USFOR-A personnel did not consistently record the project locations for 489 payments in
CIDNE and CERP Checkbook. For each of the projects, the project manager recorded
the province in CIDNE; however, Civil-Military Operations personnel recorded the
district or city in CERP Checkbook. For example, projects in CIDNE had the locations
as Paktya Province; however, CERP Checkbook listed the project locations as Gardez,
which is a district in Paktya Province.

Project Disbursement Totals Were Incomplete
The CERP project manager and PPO did not input disbursement information in CIDNE
for 4,660 CERP payments. According to the MAAWS-Afghanistan, when changes
occur, including payments to CERP projects, the CERP program manager or PPO is


8
 The sum of the individual deficiencies is greater than 1,604 because some payments had multiple
deficiencies.


                                                   8


responsible for updating CIDNE. Current and accurate disbursement information is
critical to allow CERP project managers to monitor and assess CERP fund execution and
to ensure timely deobligation of outstanding unliquidated obligations related to
completed or terminated projects. (See Finding B for further information regarding
outstanding unliquidated obligations for completed and terminated CERP projects.)

Local National Classifications Were Incomplete
The CERP project managers did not update CIDNE to reflect the number of local
nationals employed or otherwise benefitting from the CERP projects for 3,133 CERP
payments. MAAWS-Afghanistan requires the project managers to input in CIDNE the
number of local nationals employed and benefitting from CERP projects. DoD FMR,
volume 12, chapter 27, requires complete information on local nationals employed and
benefitting from CERP projects, which is critical for CERP stakeholders to measure the
overall effectiveness of CERP and its impact on local populations. However, the CERP
project manager did not include the local nationals employed for 2,769 CERP payments
and the local nationals benefitting for 3,011 CERP payments.

USFOR-A Lacked CERP Guidance and Training
Prior to May 2009, USFOR-A personnel did not have guidance on recording and
reconciling CERP project data in CIDNE and CERP Checkbook. However, once
USFOR-A personnel issued guidance, they did not ensure that CERP project managers,
Civil-Military Operations personnel, RMs, and other key personnel followed or were
adequately trained to properly and consistently implement the guidance.

Inadequate Guidance for Recording and Reconciling CERP
Project and Financial Data
In September 2008, the Combined Joint Task Force issued a CERP Standard Operating
Procedure. Then in May 2009, USFOR-A issued the MAAWS-Afghanistan guidance for
CERP. However, both lacked specific instructions on recording CERP data in CIDNE
and reconciling CIDNE and CERP Checkbook. The December 2009
MAAWS-Afghanistan included those specific instructions and guidance on how to
reclassify project categories for bulk funded projects. It also mandated that, “the
accounting systems, CERP Checkbook, and
                                                        CIDNE often did not have
CIDNE must match.” In addition, it required
                                                         sufficient data to conduct
resource management offices and CERP
                                                           those reconciliations.
program managers to perform weekly
reconciliations of CERP Checkbook to RMT, ODS, and CIDNE to ensure the project
status and the amounts committed, obligated, and disbursed for each project matched.
However, USFOR-A officials stated that CIDNE often did not have sufficient data to
conduct those reconciliations.

In February 2011, USFOR-A personnel issued an update to the MAAWS-Afghanistan.
The update contains the same requirements as above, but goes into more detail on how to
enter CERP projects within CIDNE. This new guidance includes computer screenshots
of CIDNE and explanations of how to record the project information within those fields.



                                           9


This was a major improvement over the December 2009 MAAWS- Afghanistan
guidance.

However, USFOR-A personnel could not ensure the accurate, complete, and consistent
reporting of CERP projects because USFOR-A personnel did not reconcile data between
CIDNE, CERP Checkbook, and payment documentation. USFOR-A officials should
establish independent quality control checks to verify that the project managers and
Civil-Military Operations personnel follow the guidance on how to record and report
CERP data as stated in the MAAWS-Afghanistan. In addition, USFOR-A officials
should ensure that program managers and RMs perform monthly reconciliations of
project and financial data in CIDNE and CERP Checkbook for all open CERP projects to
RMT, ODS, and source documentation to ensure the accuracy, completeness, and
consistency of the project category, project location, project disbursement, and local
national classification data elements. USFOR-A commanders should certify the
completion of monthly reconciliations, including the corrective actions taken for any
inconsistencies found during the reconciliation process. In addition, USFOR-A officials
should revise the MAAWS-Afghanistan to require monthly reconciliations of open CERP
projects and the Commander’s certification of its completion and the completion of
identified corrective actions.

Inadequate Training on Recording and Reconciling CERP
Project and Financial Data
USFOR-A officials did not effectively train program managers, project managers, and
PPOs on procedures to record and reconcile CERP project and financial data. USFOR-A
J-8 and J-9 personnel9 stated that they did not receive CERP training prior to their
deployment. As stated within the DoD “Review of the Commander’s Emergency
Response Program,” July 2010, “Deploying                       USFOR-A J-8 and J-9
adequate numbers of trained CERP personnel is              personnel stated that they did
critical to effective management, oversight, and
                                                            not receive CERP training
implementation of the program.” USFOR-A J-9
                                                             prior to their deployment.
personnel stated they provide training if requested; 

however, the training did not correlate to troop rotations. USFOR-A commanders should 

certify the completion of training for all program managers, project managers, PPOs, 

Civil-Military Operations personnel, and RMs on recording CERP project data, including 

all necessary project updates, closing out CERP projects, and reconciling CERP project 

and financial data. (See Finding B for further discussion on the project closeout process.) 


Stakeholders Need Accurate Data to Make
Informed Decisions
Key stakeholders rely on financial and project data in CERP Checkbook and CIDNE to
manage CERP. Without reliable and meaningful CERP data, USFOR-A personnel
cannot provide key stakeholders, to include Congress, USCENTCOM, USFOR-A, and


9
 J-8 is the Joint Force Resource Management and J-9 is the Joint Force Civil-Military Operations for
USFOR-A. See Appendix H for more details.


                                                   10


commanders, with the data necessary to properly manage and assess the effectiveness of
the Afghanistan CERP projects and to ensure funds are being used for the most beneficial
and sustainable projects. Unreliable CERP data negatively impact the following key
stakeholders.

   		 Congress—Unreliable data in the CERP quarterly reports negatively impact the
       ability of Congress to determine the overall execution and effectiveness of the
       program and to determine future CERP funding levels.

   		 USCENTCOM and USFOR-A—Unreliable data negatively affect the ability of
       USCENTCOM and USFOR-A to analyze the success of projects or dollars spent
       for projects by their project category. They also impair the ability to comply with
       DoD FMR guidance in completing performance metrics to apply lessons learned
       to help ensure future successful CERP projects.

   		 Commanders—Unreliable CERP project and financial data negatively impact
       commanders’ ability to determine whether they are spending CERP funds for the
       most needed projects in the most critical locations and are meeting the needs of
       the Afghanistan people. Unreliable data also impact their ability to assess where
       certain types of projects have been or could be successful. This information is
       critical for strategic and operational planning for current and future operations.

Without accurate CERP project and payment data, the effectiveness of CERP cannot be
determined, which could put the attainment of the overall goals of the CERP program,
such as improving the security of coalition forces and the Afghanistan people, at risk.

DoD Initiative to Automate CERP Checkbook
On April 1, 2011, USFOR-A personnel stopped maintaining the manual CERP
Checkbook because the DoD Business Transformation Agency developed a way to
automate the Checkbook report by linking the CIDNE project data with the financial data
from RMT and STANFINS. Army Budget Office personnel stated that the Department
will use this automated system to prepare the third-quarter CERP Report to Congress.
During a May 4, 2011 meeting with Business Transformation Agency personnel, we
observed the new automated CERP reporting tool and its transaction listing, which details
the transactions that did not directly match the data within CIDNE, RMT, or ODS. Based
upon the numerous transactions contained within the listing, the automated CERP
reporting tool will require a substantial amount of research to ensure the accuracy of the
CERP reporting to Congress.

Recommendations, Management Comments, and
Our Response
A. 	We recommend the Commanding General, U.S. Forces-Afghanistan:

        1. Establish independent quality control checks to verify that commanders,
program managers, project managers, resource managers, and project purchasing
officers follow the U.S. Forces-Afghanistan Publication 1-06, “Money As A Weapon


                                           11


System-Afghanistan,” guidance for recording and reconciling Commander’s
Emergency Response Program data.

U.S. Forces-Afghanistan Comments
USFOR-A agreed and stated that it has taken two steps to alleviate the requirement to
reconcile financial data in CIDNE and the CERP Checkbook. USFOR-A developed a
financial tab in CIDNE that would allow project managers and resource managers to
view and track financial data. In addition, USFOR-A stated that it has established an
automated tool to consolidate project and financial data. USFOR-A stated that the new
tool allows it to retrieve the required information for the CERP Checkbook, identify
missing data, and notify responsible units to take corrective actions. USFOR-A
concluded that there was no need to reconcile financial data in CIDNE and CERP
Checkbook because the reconciliation process has been automated.

       2. Perform monthly reconciliations of project and financial data in
Combined Information Data Network Exchange for all open Commander’s
Emergency Response Program projects to Commander’s Emergency Response
Program Checkbook and source documentation to ensure accuracy, completeness,
and consistency of data elements and revise U.S. Forces-Afghanistan
Publication 1-06, “Money As A Weapon System-Afghanistan” to require monthly
reconciliations for open Commander’s Emergency Response Program projects.

U.S. Forces-Afghanistan Comments
USFOR-A neither agreed nor disagreed but stated that it was taking steps to modify the
MAAWS-Afghanistan CERP Standard Operating Procedure to improve data quality in
the CIDNE database, implement an improved CERP Review Board process to increase
scrutiny of proposed projects, and institute a quality assurance methodology. USFOR-A
stated the target date for implementing the proposed changes to the
MAAWS-Afghanistan CERP Standard Operating Procedures was first quarter FY 2012.
USFOR-A also stated that its response to Recommendation 1 also applied to this
recommendation.

        3. Certify completion of monthly reconciliations of project and financial data
in Combined Information Data Network Exchange for all open Commander’s
Emergency Response Program projects to Commander’s Emergency Response
Program Checkbook and source documentation and revise U.S. Forces-Afghanistan
Publication 1-06, “Money As A Weapon System-Afghanistan,” to require
certification on the monthly reconciliations and corrective actions. The certification
should include the corrective actions taken on all inconsistencies found during the
reconciliation process.

U.S. Forces-Afghanistan Comments
USFOR-A agreed and stated that the new automated process discussed in its response to
Recommendation A.1 eliminates the need to reconcile open CERP projects to CERP
Checkbook project and financial data.



                                          12


      4. Certify the completion of training for all program managers, project
managers, project purchasing officers, Civil-Military Operations personnel, and
resource managers on recording CERP project data, including all necessary project
updates, the project closeout process, and reconciling the Commander’s Emergency
Response Program project and financial data.

U.S. Forces-Afghanistan Comments
USFOR-A neither agreed nor disagreed but stated that it performed a training initiative
across the Combined Joint Operational Area-Afghanistan from January 2011 to June
2011 to educate CERP and Resource Management personnel on the automated CERP
Checkbook process, emphasizing the importance of complete, accurate, and reliable data
entry required in the CIDNE database. USFOR-A will confirm compliance using the
quality assurance and quality control target sampling of CIDNE data as well as using the
automated CERP Checkbook to identify data discrepancies.

Our Response
The USFOR-A comments on recommendations A.1 through A.4 were responsive, and the
actions met the intent of the recommendations. For Recommendations A.1 and A.2,
USFOR-A’s implementation of its automated reconciliation tool and updating the
MAAWS-Afghanistan CERP Standard Operating Procedure satisfied the intent of the
recommendations as they eliminate the manual reconciliation process and emphasize data
quality. For Recommendation A.3, USFOR-A’s implementation of the automated
reconciliation tool satisfied the intent of the recommendation and eliminated the need to
revise the MAAWS-Afghanistan CERP Standard Operating Procedures. Additionally,
USFOR-A’s training initiative satisfied Recommendation A.4.




                                           13


Finding B. USFOR-A Did Not Deobligate
Unused CERP Project Funds and Made
Improper CERP Payments
USFOR-A personnel did not deobligate funds for closed, terminated, or inactive CERP
projects and made improper payments for CERP projects initiated from FY 2007 through
FY 2009. This occurred because USFOR-A officials did not:

    		 implement adequate procedures for confirming that projects were properly closed
        out, 

    		 provide Resource Management personnel with the data necessary to reconcile the
       project status information in CERP Checkbook with the status information in
       CIDNE, and 

    		 ensure that CERP contract payments were only made from the disbursing office
       designated in the contract to prevent improper payments and consequent negative
       unliquidated obligations that must be cleared for project closure. 

As a result, USFOR-A had at least $16.7 million and potentially up to $38.4 million in
outstanding unliquidated obligations that could be deobligated and put to better use.
USFOR-A also had $1.7 million of improper payments which, if collected, could be put
to better use. In addition, when the CERP project managers and Resource Management
personnel do not keep CIDNE and CERP Checkbook up–to–date, it places an additional
burden on incoming personnel, who must research and follow up on open CERP projects
to determine their status.

On February 7, 2011, we issued a memorandum to the Commanding Generals of
USCENTCOM and USFOR-A providing them with the results of our analysis of CERP
projects and payments. The memorandum included a list of CERP projects that had
actual or potential outstanding unliquidated obligations needing to be deobligated and
projects that had potential improper payments needing to be collected. On February 28,
2011, the USCENTCOM Deputy Inspector General (IG) responded to the memorandum,
stating that USFOR-A personnel had completed a thorough review of the CERP projects
we identified and had identified $1.2 million that needed deobligation. The Deputy IG
also stated that, as a result of our memorandum, USFOR-A established a monthly CERP
project report to provide improved visibility and to ensure that completed or terminated
projects were correctly closed in CIDNE and the financial systems. See Appendix F for
the memorandum and the USCENTCOM Deputy IG’s response to the memorandum.

Laws, Regulations, and Guidance
Laws, regulations, and guidance concerning unliquidated obligations and improper
payments applicable to CERP are found in the following:

   		 Public Law 107-300, “Improper Payments Information Act of 2002,” 

       November 26, 2002; 
 


                                           14


   		 DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” and  

   		 USFOR-A Publication 1-06, “Money As A Weapon System-Afghanistan,”
       December 2009 (updated February 2011).  

The Improper Payments Information Act of 2002 states that improper payments include
duplicate payments. The Act requires the heads of each agency to annually review all
programs and activities they administer and identify those programs and activities that
may be susceptible to significant improper payments. For all programs and activities
where the risk of improper payments is significant, the head of the agency must estimate
the amount of improper payments and report the estimates to the President and Congress
with a progress report on actions to reduce improper payments.

The DoD FMR provides guidance on the identification and handling of erroneous
payments, including illegal, incorrect, and improper payments. DoD FMR, volume 5,
chapter 6, defines erroneous payments as any payment that is an incorrect overpayment
under statutory, contractual, administrative, or other legally applicable requirement. The
definition includes duplicate payments as an erroneous payment. It also defines the
responsibilities of certifying officers for reviewing suspected erroneous payments and
commanders’ responsibilities if recipients of erroneous payments do not voluntarily
return the amount owed. DoD FMR, volume 10, chapter 18, provides guidance on the
collection of debts owed by contractors, vendors, assignees, and business entities to DoD.

MAAWS-Afghanistan requires the resource management offices and CERP program
managers to perform weekly reconciliations of CERP Checkbook to RMT, ODS, and
CIDNE to ensure project status and the amounts committed, obligated, and disbursed for
each project match. CERP project managers must reconcile differences when the
obligations do not match. The MAAWS-Afghanistan also states that the Resource
Management office is responsible for clearing all unliquidated obligations, including any
necessary fund deobligations, in the accounting systems. CERP project managers must
provide complete CERP project files for completed or terminated CERP projects to the
resource management office. Resource management office personnel are then required to
clear all unliquidated obligations in the accounting system, endorse that they cleared the
CERP project in the accounting system, and then ensure the endorsement is attached to
the project file in CIDNE.

Outstanding Obligations and Improper Payments
USFOR-A personnel did not deobligate funds for closed, terminated, or inactive CERP
projects and made improper payments on CERP projects from FY 2007 through
FY 2009. Using October 2010 accounting data, we determined that 477 CERP projects
from FY 2007 through FY 2009 had outstanding obligations. Of these 477 CERP
projects, 207 projects were terminated, completed, inactive, or missing from CIDNE and
had outstanding unliquidated obligations. Specifically, USFOR-A had 108 CERP
projects, totaling $16.7 million, with outstanding obligations that it needed to close out.
USFOR-A also had 99 CERP projects, totaling $21.7 million, which it needed to evaluate
to determine the projects status. In addition, USFOR-A personnel made $1.7 million in
improper payments for 13 CERP projects.


                                            15


To identify the CERP projects that were closed, terminated, or inactive, and the improper
payments, we evaluated and compared data in CIDNE, CERP Checkbook, and ODS. We
then identified whether the project’s CIDNE status was terminated, completed,
nominated, or obligated. For CERP projects designated as “terminated” or “completed”
in CIDNE, we reviewed ODS data to determine whether the projects had funding
available that should be deobligated. We also reviewed ODS data for projects designated
in CERP Checkbook as “open” to identify those that had limited financial activity for an
extended period. We considered this an indicator that the projects should potentially be
closed and remaining funds deobligated. Finally, we reviewed CERP Checkbook for
projects that had negative unliquidated obligations to identify improper payments.

Obligations for CERP Projects Designated as
Terminated or Closed
We determined that 108 CERP projects designated as terminated or canceled in CIDNE
were erroneously designated in CERP Checkbook as open projects. These 108 CERP
projects had $16.7 million in outstanding unliquidated obligations that needed to be
deobligated. In our February 7, 2011 memorandum, we provided USFOR-A officials
with a list of each of these CERP projects, by CIDNE project number, fiscal year, and
amount of unliquidated obligation.

CERP Projects With Limited Activity
Ninety-nine CERP projects were either designated as open projects in CIDNE, but had
limited financial activity for an extended period (in some cases up to 3 years), or were
included in CERP Checkbook, but we could not find a corresponding project in CIDNE.
These 99 CERP projects had $21.7 million in potential unliquidated obligations that
require further evaluation to determine whether the projects were terminated or closed.
On February 7, 2011, we provided USFOR-A officials with a list of each of these CERP
projects, by CIDNE project number (if known), fiscal year, and the amount of
unliquidated obligation that potentially could be deobligated.

Improper Payments for CERP Projects
Thirteen CERP projects had negative unliquidated obligations, indicating improper
payments. These 13 CERP projects had $1.7 million in negative unliquidated obligations
that require further evaluation to determine whether improper payments were made to the
vendor. In our February 7, 2011, memorandum, we provided USFOR-A with a list of
each of these CERP projects by CIDNE project number, fiscal year, and the amount of
negative unliquidated obligation. Section 3528, title 31, United States Code, states that
certifying officers are responsible for improper payments made under their authority.

Inadequate CERP Closeout Procedures and Data
USFOR-A officials did not provide personnel with the training or data necessary to
properly close out CERP projects. Specifically, USFOR-A officials did not:

   		 implement adequate tools, such as a checklist, for confirming that projects were
       properly closed out;



                                           16


   		 provide resource management personnel with the data necessary to reconcile the
       project status information in CERP Checkbook with the status information in
       CIDNE; and

   		 ensure that CERP contract payments were only made from the disbursing office
       designated in the contract, to prevent duplicate payments and consequent negative
       unliquidated obligations that must be cleared for project closure.

USFOR-A Needs to Improve Project Closeout Procedures
USFOR-A officials did not implement adequate procedures for confirming that CERP
projects were properly closed out. CERP project managers were responsible for
providing complete CERP project files on completed or terminated CERP projects to the
resource management office to close out the projects in the accounting system. However,
according to a USFOR-A J-8 representative, project managers did not receive training on
the importance of fully closing out projects and annotating the projects as completed or
terminated. The J-8 representative added that the project manager’s focus “is on the
project’s execution, while the documentation and CIDNE status are often neglected.”

The USFOR-A J-8 representative added that
project managers leave projects open because they       Project managers leave projects
“often do not fully understand how the financial        open because they “often do not
systems operate and don’t realize the effect of              fully understand how the
keeping funds obligated for long periods of time.”        financial  systems operate and
However, we are not making a recommendation in         don’t realize the effect of keeping
Finding B because Recommendation A.4                    funds obligated for long periods
addresses the need to train CERP project                              of time.”
managers on the importance of properly closing
out completed and terminated projects, and USFOR-A updated the MAAWS-Afghanistan
in February 2011 to include a closeout checklist to assist project managers in closing out
projects.

Resource Managers Need Sufficient Detail to Determine
Project Status
USFOR-A officials did not provide Resource Management personnel with sufficient data
to determine the status of some CERP projects. According to USFOR-A J-8, RMs, “are
not responsible for tracking the project’s status and do not have the means to determine if
a project has simply been given up on or if it is still active and just delayed.” However,
MAAWS-Afghanistan requires the resource management offices and CERP program
managers to perform weekly reconciliations of CERP Checkbook to RMT, ODS, and
CIDNE to ensure that the project status and the amounts committed, obligated, and
disbursed for each project match. USFOR-A officials did not provide resource
management personnel with the data necessary to reconcile the project status information
in the CERP Checkbook with the status information in CIDNE. The CERP program
managers were responsible for reconciling differences when the obligations did not
match.




                                            17


One of the major obstacles in closing out funds        Without a CIDNE number to
for completed or terminated projects was the         match to a STANFINS document
CERP reporting tools. The crosswalk between            reference number, the RM is
the accounting-level detail within the CERP          unable to determine which funds
Checkbook and the project-level detail                   are tied to which project.
contained in CIDNE was difficult. Prior to
FY 2009, CIDNE project numbers were not provided on any piece of electronic
information other than CIDNE itself, and CIDNE did not contain the STANFINS
document reference number necessary to tie project-level detail to the accounting
information, which made project management and oversight more complex. USFOR-A
personnel recognized this issue, stating that without a CIDNE number to match to a
STANFINS document reference number, the RM was unable to determine which funds
were tied to which project. Because of this complexity, CERP administrators could not
keep up with project status changes, thus often leaving closed projects with unliquidated
funds.

On February 28, 2011, USFOR-A J-8 personnel informed us of a proposed initiative to
increase RM’s ability to track financial data in CIDNE. The proposed initiative includes
the development of a financial tab in CIDNE that would “automatically populate each
CERP project with its corresponding financial data (Commitment Amount/Date,
Obligation Amount/Date, & Disbursement Amount/Date).” The Commanding General,
USFOR-A, should prioritize the implementation of this initiative to allow RMs to view,
control, and reconcile financial data related to CERP projects.

CERP Payments Made From Unauthorized Disbursing Sites
USFOR-A disbursing officers made CERP payments from disbursing sites not authorized
in the contract. The Joint Contracting Command-Iraq/Afghanistan and Defense Finance
and Accounting Service, Rome, New York (DFAS-Rome), have established procedures
to make large payments from DFAS-Rome. However, for the 13 CERP projects for
which we identified $1.7 million in improper payments, contract payments were made
both in Afghanistan and by DFAS-Rome, which was the disbursing site designated in the
contract. USFOR-A must ensure that disbursing personnel follow the payment terms of
the contracts and only pay vendors from disbursing sites authorized in the contract. The
Commanding General, USFOR-A, should identify certifying personnel who violate
contracting terms and conditions of payment location and, if warranted, hold them liable
for the improper payments in accordance with section 3528, title 31, United States Code.

All 13 of these improper payments created negative unliquidated obligations, or a
negative balance for that project’s funding, which must be cleared for project closure.
We requested status updates on these negative unliquidated obligations from USFOR-A
and DFAS-Rome personnel to determine whether USFOR-A took actions to collect the
improper payments. USFOR-A personnel collected two of the improper payments,
totaling $73,388.85. USFOR-A personnel used part of a third payment as an offset on an
invoice, totaling $183,999. USFOR-A personnel transferred the rest of the improper
payments, totaling $1.5 million, to DFAS and cleared the debts from the respective
disbursing officer’s accounts.



                                            18


DFAS personnel did not take actions to collect these debts owed to the U.S. Government.
An Army Financial Management Command official stated that DFAS has had difficulty
in collecting the debts from Afghanistan vendors because DFAS has limited ability to
collect debts outside of U.S. jurisdiction. Because USFOR-A transferred these debts to
DFAS, it cannot recoup the amounts by using them as offsets against future invoices
from these Afghanistan vendors. To increase the likelihood of collecting contractor debts
from Afghanistan vendors, USFOR-A should continue to pursue debt collection and
conduct investigations even when the debt is transferred from accountable disbursing
officers to the Defense Finance and Accounting Service Debt Management Office.

Unused CERP Funds Put to Better Use
Outstanding obligations tie up funds that could be used for other projects that can assist
the war effort. As a result of completed or terminated CERP projects having outstanding
obligations, USFOR-A had at least $16.7 million and potentially up to $38.4 million in
outstanding unliquidated obligations that could be deobligated and put to better use on
other projects or requirements. In addition, the 13 improper payments amounted to
$1.7 million that, if collected, could be put to better use. When USFOR-A project
managers do not properly terminate or close out projects before completing their rotation
and leaving theater, new rotations must carry the additional burden.

USFOR-A Took Action on Open Obligations
We informed USFOR-A officials in September 2010 that we had reviewed open
obligations for FYs 2007, 2008, and 2009 because of the potential for identifying funds
that could be put to better use. To identify additional closed or terminated CERP
projects, we obtained updated accounting data on October 8, 2010, for analysis. In
January 2011, USFOR-A personnel informed us that they were having problems
identifying the closed or terminated projects because of the difficulty in matching CIDNE
project data to the CERP Checkbook and the financial system data. Because we had
completed much of our analysis of the October 8, 2010, data, on February 7, 2011, we
issued a memorandum to USCENTCOM and USFOR-A officials requesting that action
be taken to deobligate outstanding obligations associated with the closed projects we
identified during our review. This included the following:

     		 109 CERP projects10 from FY 2007 through FY 2009 reported as completed or
         terminated with obligations of $18.7 million,
     		 99 CERP projects from FY 2007 through FY 2009 with outstanding obligations
         and a long period of inactivity, and
     13 CERP projects with potential improper payments of $1.7 million.
As attachments to the memoranda, we provided specific data concerning each of the
categories for which we requested USFOR-A personnel to review and take action.


10
   In the February 7, 2011, memorandum, we identified 109 CERP projects in a terminated or completed
status with outstanding obligations of $18.7 million. Based on subsequent information that the
unliquidated obligations for one of the projects had been fully disbursed, we revised the results to
108 CERP projects.


                                                  19


On February 28, 2011, the USCENTCOM Deputy IG responded that, since we initiated
our audit, USFOR-A had reconciled 89 of the 208 CERP projects identified as
terminated, completed, inactive, or not located in CIDNE. He added that USFOR-A
closed 96 of the 208 CERP projects, totaling $1.1 million, and that ARCENT would
deobligate the remaining funds. USFOR-A determined that 23 CERP projects were
ongoing and should remain open. In addition, USCENTCOM Deputy IG stated that 3 of
the 13 projects identified as having improper payments had outstanding obligations,
totaling $120,602.71, and transferred them to ARCENT for closure.

Because the USCENTCOM Deputy IG did not address whether the improper payments
were collected, we contacted DFAS-Rome for an update. DFAS-Rome stated that 11 of
the 13 improper payments still have outstanding balances totaling $1.5 million.
DFAS-Rome also stated that it had either transferred the balances to the U.S. Treasury
Department for write-off or the balances were under investigation within DoD for loss of
funds.

Section 3528, title 31, United States Code, provides that certifying officers are liable for
improper payments made under their responsibility. If the investigations find the
certifying officers at fault or negligent, then DFAS must hold them accountable for the
improper payments. The USCENTCOM
Deputy IG added that USFOR-A established a               USFOR-A established a new
new monthly report to track CERP projects,               monthly report to track CERP
which should improve visibility, and USFOR-A            projects, which should improve
commanders will use the reports to hold CERP              visibility, and … hold CERP
program managers responsible for ensuring that         program managers responsible.
projects are completely and properly closed in
CIDNE and all financial systems.

Revised Recommendation
Although not required to comment, DFAS-Rome officials asked us to clarify whether
Recommendation B.3 referred to responsibility for contractor debt collection. In
response to the request, we revised the recommendation to which USFOR-A had agreed.

Recommendations, Management Comments, and
Our Response
B. We recommend the Commanding General, U.S. Forces-Afghanistan:

     1. Prioritize the proposed initiative to develop a financial tab in the
Combined Information Data Network Exchange that would allow resource
managers to view, control, and reconcile financial data related to the Commander’s
Emergency Response Program projects.

U.S. Forces-Afghanistan Comments
USFOR-A neither agreed nor disagreed, but stated that the financial tab was undergoing
an assurance and validation process and that it would continue to express the urgency of



                                             20


implementing the new financial tab in CIDNE and the separate initiative to import
financial data into CIDNE.

       2. Identify certifying personnel who violate contracting terms and conditions
of payment location and, if warranted, hold them liable for the improper payments
in accordance with section 3528, title 31, United States Code.

U.S. Forces-Afghanistan Comments
USFOR-A agreed and stated that its quality assurance and quality control program would
allow it to analyze and compare data in a manner similar to what the auditors did for this
report. USFOR-A also stated that it would identify projects designated as “open” to
identify those that have limited financial activity for an extended period. It would also
review new data fields (pending implementation of the financial tab) in CIDNE for
projects that have negative unliquidated obligations to identify improper payments.
USFOR-A stated the implementation date for the new quality assurance processes was
first quarter FY 2012.

Our Response
The USFOR-A comments on Recommendations B.1 were responsive, and the actions
met the intent of the recommendation. For Recommendation B.2, USFOR-A comments
were non-responsive and did not appropriately address actions it would take to identify
certifying personnel who violate contracting terms and conditions of payment location
and hold those personnel responsible in accordance with section 3528, title 31, United
States Code. We request USFOR-A to provide comments on the final report stating what
actions it would need to take to implement the recommendation.

       3. Coordinate with the Defense Finance and Accounting Service to develop
guidance to ensure the local commands continue to pursue debt collection and
conduct investigations even when the debt is transferred from accountable
disbursing officers to the Defense Finance and Accounting Service Debt
Management Office.

U.S. Forces-Afghanistan Comments
USFOR-A agreed and stated that it would coordinate with CENTCOM-Joint Theater
Support Contracting Command (C-JTSCC) and comply with the guidance the latter
provides on transferring contractor debt with Afghanistan vendors.

Our Response
USFOR-A comments were partially responsive. USFOR-A discussed the coordination
with C-JTSCC but did not discuss USFOR-A or C-JTSCC coordination with DFAS to
develop guidance. We revised Recommendation B.3 based on unsolicited
correspondence from DFAS-Rome and request that USFOR-A provide additional
comments on revised Recommendation B.3.




                                            21


Finding C. USCENTCOM and USFOR-A
Made Unauthorized Advance Payments on
CERP Contracts
USCENTCOM and USFOR-A contracting officials (contingency contracting officers
[CCOs] and PPOs),11 were responsible for at least 30 unauthorized advance payments,
totaling $3.4 million, made to vendors on CERP contracts. MAAWS-Afghanistan
prohibits advance payments and states that payments can only be made to vendors when
goods or services are received. The unauthorized advance payments occurred because
the CENTCOM-Joint Theater Support Contracting Command (C-JTSCC) did not provide
sufficient oversight to detect and prevent contracting officials from including advance
payment language in 22 of the 29 CERP contracts.12 As a result, USFOR-A had limited
authority to recoup the advance payments in instances of vendor nonperformance.

CERP Contract Oversight
The C-JTSCC (formerly Joint Contracting Command-Iraq/Afghanistan and CENTCOM
Contracting Command) is responsible for integrating, managing, and executing the
contingency contracting mission in support of
                                                      The Commander, C-JTSCC, is
Operation Enduring Freedom. The Commander,
                                                        responsible for ensuring the
C-JTSCC, is responsible for ensuring the
                                                     effective oversight and execution
effective oversight and execution of theater
                                                      of theater support contracts, to
support contracts, to include CERP contracts.
                                                          include CERP contracts.
The CCOs of C-JTSCC train and certify the PPOs
as the CCOs’ representatives and delegate to the PPOs the authority to award CERP
contracts.

Advance Payment Guidance
Federal Acquisition Regulation (FAR) part 32 defines an advance payment as a type of
contract financing where the Government disburses funds to a vendor prior to the receipt
of goods or services. FAR part 32 states that while it is the contractor’s responsibility to
provide all the resources needed for contract performance, in some markets and
situations, disbursements can be authorized to provide working capital for contract
performance. However, the Joint Contracting Command-Iraq/Afghanistan Acquisition


11
   Contracting officials is the term we use when referring to both contingency contracting officers (CCOs)
and project purchasing officers (PPOs) because both are responsible for awarding CERP contracts in
Afghanistan. CCOs are part of the C-JTSCC and are responsible for awarding contracts for projects greater
than $500,000. PPOs are part of USFOR-A and serve as contracting officer’s representatives with
delegated authority to enter into contracts less than $500,000. Both C-JTSCC and USFOR-A report to
USCENTCOM.
12
   One CERP contract had two advance payments. So while the number of payments was 30, the number
of CERP contracts with an advance payment was 29. We relied on receiving reports, invoices, and
contractor correspondence to determine that 7 of the 29 payments were advances, even though the voucher
package did not contain a CERP contract or portion of the contract with payment language.


                                                   22


Instruction, May 2007, states that advance payments are the highest risk contract
financing option because of the ongoing hostilities, the lack of an established banking
system, and an unstable commercial environment in Afghanistan.

On March 24, 2008, the Deputy Secretary of Defense issued a policy memorandum titled
“Waiver of Limiting Legislation for Commander’s Emergency Response Program
(CERP) for Fiscal Years 2008 and 2009.” The Deputy Secretary waived the two chapters
in the United States Code that provide the statutory source for the FAR part 32 advance
                                  payment guidance. Therefore, FAR part 32 no longer
    …advance payments for         serves as guidance for advance payments; instead, the
    CERP are not authorized       guiding authority is MAAWS-Afghanistan, which states
  and… payments can only be that advance payments for CERP are not authorized and
      made when goods or          that payments can only be made when goods or services
     services are received.       are received.

The Combined Joint Task Force-101 guidance in effect from September 2008 until the
issuance of the MAAWS-Afghanistan in May 2009 did not explicitly permit or prohibit
advance payments. We could not identify any pre-September Afghanistan-specific
CERP guidance. However, because U.S. forces in Iraq and Afghanistan were both part of
USCENTCOM, we relied upon Iraq CERP guidance for the preceding period.
Specifically, the “Multi-National Corps-Iraq CERP Family of Funds Fiscal Policies and
Standard Operating Procedures,” June 2005, prohibits CERP advance payments.

Unauthorized Advance Payments
Contracting officials made at least 30 unauthorized CERP advance payments,13 totaling
$3.4 million, during FYs 2008, and 2009,          Contracting officials made at least 30
and through January 2010. Table 2 on the              unauthorized CERP advance
following page shows the breakdown of the        payments, totaling $3.4 million, during
advance payments by disbursement method.            FYs 2008, and 2009, and through
As Table 2 illustrates, half of the 30 advance               January 2010.
payments were cash advances,
totaling $476,311.




13
 Our review of contracts and CERP payment documentation identified 30 advance payments, 8 of which
were made in the 7 months before the MAAWS-Afghanistan in May 2009 was issued.


                                                23


         Table 2. CERP Advance Payments by Disbursement Method.
    Payment          Number of      Total of Advance   *Total of Advance
    Method        Advance Payments      Payments       Payment Contracts
 Cash                               15                    $476,310.99               $3,916,601.92
 Electronic Funds
                                    14                    2,878,654.74              43,117,946.96
 Transfer
 Check                               1                         9,007.74                  45,038.74

  Total                             30                   $3,363,973.47             $47,079,587.62
  * One contract had two advance payments, including one cash payment ($275,960.70) and one
   electronic funds transfer ($1,103,843). Therefore, the contract amount was split evenly between cash
   and electronic funds transfer.

In one example, a CCO was responsible for two advances against one contract, an
electronic funds transfer of $1,103,843 and a cash advance payment of $275,961 on
a $5,519,214 CERP contract for work on Jalalabad city streets. See Figure 1 for the
CERP contract excerpt authorizing the $1,103,843 advance.

               Figure 1. Advance Payment Contract Language Example




USFOR-A issued the advance payments in July 2008, but USFOR-A personnel did not
make the first project progress payment until 10 months later in May 2009. In another
example, a CCO awarded a $1,695,924 CERP contract for road maintenance machines
and training that included a $253,547 advance payment. CERP contractors eventually
completed the contracts in the previous examples.

Also, USFOR-A personnel issued advance payments for projects that were never
completed or were closed before receipt of goods or services. In one example, a PPO


                                                  24


awarded a $33,000 CERP contract for a wind and solar power project that included an
advance payment of $6,650. The contractor signed the CERP contract in early
April 2009 and later that same month, submitted an invoice requesting an advance
payment of 25 percent of the contract amount. The vendor invoice contained no details
concerning what was purchased or why the vendor wanted the advance. USFOR-A paid
the advance in September 2009, and as of February 2011, the advance was the only
payment made against the contract. Unless the vendor completes some or all of this
contract, USFOR-A personnel will have paid this contractor $6,650 and received nothing
in return.

In another example, in August 2009, a PPO approved a $22,675 advance payment on a
$113,375 contract for a cobblestone road. We found no evidence that the vendor made
any progress toward completing the contract before USFOR-A personnel closed the
project and deobligated the remaining $90,700 in June 2010. Therefore, DoD received
nothing in return for the $22,675 advance payment.

Contracting Officials Were Not Following
CERP Guidance
Unauthorized advance payments occurred because of insufficient C-JTSCC contracting
official oversight and training, which should have prevented the prohibited advance
payments and the inclusion of language permitting the advance payments into 22 of
the 29 related CERP contracts. The remaining seven did not have a CERP contract or the
portion of the contract with advance payment language in the voucher package.

Contracting officials did not follow CERP guidance in MAAWS-Afghanistan, which
disallows advance payments. The MAAWS-Afghanistan states the commanders at all
levels are responsible for the success of CERP and must ensure that their personnel abide
by the guidelines prescribed in MAAWS-Afghanistan. However, the C-JTSCC was
ultimately accountable because it was responsible for issuing policy, directives, and
guidance to ensure the effective execution and oversight of all theater contracts. This
oversight included ensuring that contracting officials were properly trained and were not
including advance payment language in CERP contracts. To ensure compliance with
MAAWS-Afghanistan, the Commander should institute appropriate oversight of the
contracting process to detect and prevent the use of advance payments on CERP contracts
and also identify training opportunities for PPOs. In addition, the Commander should
review the contracting officials’ actions related to CERP contracts that inappropriately
included advance payment language and determine whether administrative action is
warranted.

No Consideration for CERP Advance Payments
USFOR-A personnel made high-risk advance payments to vendors on CERP contracts
and did not receive goods or services in return. Because the advance payments were not
directly tied to the purchase of specific goods or services, there was no guarantee that
vendors used the advanced funds to fulfill the contract or even for purposes that are in the
best interest of the Government. The contractor could have used the funds for fraudulent


                                            25


or illicit purposes unrelated to completing the contract. For example, from the
30 payments reviewed, we identified 2 instances of apparent contractor nonperformance
for which the contractor received an advance payment before the project was terminated.
For the two contracts, totaling $146,375, USFOR-A personnel paid $29,325 in combined
advances and received nothing in return.

USFOR-A’s ability to recoup any advanced funds by suing the vendor or placing a lien
on the vendor’s property is hampered by the Afghanis’ use of informal community
structures for legal dispute resolution, a tattered land registration system, an undeveloped
banking system, and ongoing hostilities.14

Recommendations, Management Comments, and
Our Response
C. We recommend the Commanding General, CENTCOM-Joint Theater Support
Contracting Command:

        1. Ensure compliance with U.S. Forces-Afghanistan Publication 1-06,
“Money As A Weapon System-Afghanistan,” by establishing a quality control
oversight program to identify training opportunities and to detect and prevent the
use of advance payments on Commander’s Emergency Response Program
contracts.

CENTCOM-Joint Theater Support Contracting Command and
U.S. Forces-Afghanistan Comments
The C-JTSCC Chief of Staff agreed and stated that a quality control program was
warranted to reduce the use of advance payments and identify training opportunities. He
also stated that the quality control program would be a collaborative effort between
C-JTSCC and USFOR-A J-8 and J-9 so that all CERP contracts would be eligible for
review. USFOR-A stated that it would comply with any guidance C-JTSCC provides on
advance payments and agreed that the quality control program would help detect
deficiencies, such as advance payments, that can be addressed through further training.
The target date for implementing the quality program was first quarter FY 2012.

       2. Initiate a review of the contracting officials’ actions related to
Commander’s Emergency Response Program contracts that inappropriately
included advance payment language and determine whether administrative action is
warranted.




14
  According to U.S. Agency for International Development, “2009 Assessment of Corruption in
Afghanistan,” many Afghans use informal community structures for legal dispute resolution. In addition,
the report states that 30 years of conflict have left land registration systems in tatters. The Joint Contracting
Command-Iraq/Afghanistan Acquisition Instruction, May 2007 states that Afghanistan lacks an established
banking system and has an unstable commercial environment.


                                                      26


CENTCOM-Joint Theater Support Contracting Command and
U.S. Forces-Afghanistan Comments
The C-JTSCC Chief of Staff neither agreed nor disagreed, but stated C-JTSCC planned to
review all CERP contracts over $500,000 within 90 days, to ensure compliance and
determine any appropriate action. After consultations between the two, C-JTSCC and
USFOR-A estimated that many of the 17,000 CERP projects in FY 2011 were
under $500,000 and that it was not feasible to review all of them. Instead C-JTSCC and
USFOR-A believed the best course of action was for USFOR-A to reinforce through
training that advance payments are not authorized.

Our Response
The C-JTSCC Chief of Staff’s and the USFOR-A comments on Recommendation C.1
were responsive and met the intent of the recommendation. For Recommendation C.2,
C-JTSCC, Chief of Staff and USFOR-A comments were nonresponsive because they
lacked an implementation plan for reviewing contracting officials’ actions related to the
30 advance payments on CERP contracts identified in this finding that inappropriately
included advance payment language to determine whether administrative action was
warranted. We request that C-JTSCC and USFOR-A provide comments on the final
report explaining the results its review of the 30 advance payments and what actions they
took.




                                           27


Finding D. Strengthening Controls for
Foreign Currency Contract Payments
USFOR-A controls did not prevent disbursing officers and paying agents from
withdrawing funds for contract payments from the finance office at one exchange rate
and subsequently paying the contractor using a different exchange rate. This occurred
because the FAR does not require that contracting personnel write contracts in the
currency in which the vendor will receive payment. In addition, although the C-JTSCC
updated the CENTCOM Contracting Command Acquisition Instruction in August 2010
to require that Afghanistan vendors be awarded contracts in afghanis, the Instruction does
not require that all contracts be written in the same currency in which the vendor will be
paid. As a result, USCENTCOM and USFOR-A have a high risk of embezzlement of
funds by disbursing officials, kickbacks, and overpayments to the Afghanistan vendors
primarily due to the ease in performing currency exchange fraud and the difficulty in
detecting the illicit gains. While we did not identify specific cases of fraud, exchange
rate fraud has occurred in the past in Afghanistan. USCENTCOM and USFOR-A also
have a high risk of underpayment to the Afghanistan vendors, which could result in a
negative image of coalition forces.

On November 10, 2010, we issued a memorandum to the Commanding Generals of
USCENTCOM and USFOR-A to inform them of the control weaknesses related to
fluctuating exchange rates and suggested actions to mitigate the risks related to foreign
currency fluctuations. On November 29, 2010, the Director of Operations, C-JTSCC,
responded to the memorandum by concurring with the three suggested actions and
identifying recent policy updates and procedures that address the suggested actions. See
Appendix G for the memorandum and the C-JTSCC response.

Weaknesses in Foreign Currency Contract Payments
During our review of 15,458 cash payments, totaling $255 million,15 made to
Afghanistan vendors from November 2008 through January 2010, we identified a control
weakness with respect to contracts that the Army awarded in U.S. dollars but paid in
afghanis. The contracts frequently stipulated that         This provision allowed
the “exchange rate to be used will be the current      disbursing officers and paying
exchange rate at the time the money is drawn for      agents to draw from the finance
payment.” This provision allowed disbursing           office an amount different from
officers and paying agents to draw from the finance         the contract amount.
office an amount different from the contract
amount. Specifically, they could draw the contract payment at one exchange rate but pay
the contractor using a different exchange rate.



15
  Of these cash payments, 2,420, totaling $65.5 million, were payments for CERP projects. The original
data pull included all 15,458 foreign currency cash payments, from which CERP payments had to be
extracted. We observed that the foreign currency weaknesses applied not only to CERP, but to all the
foreign currency vendor payments paid in Afghanistan.


                                                  28


A foreign currency fluctuation risk occurs when a disbursing officer or paying agent has
the opportunity to wait for a favorable exchange rate before drawing funds from the
finance office for payment. For example, one of the CERP contracts we examined
stipulated an exchange rate of 50 afghanis to $1 to the contractor for a payment worth
$1 million. However, the paying agent withdrew the payment using an exchange rate of
52.5 afghanis to $1, which was the exchange rate in effect on the withdrawal date. This
created an opportunity to either overpay the vendor by 2.5 million afghanis (equivalent to
$50,000) or to embezzle the 2.5 million afghanis and pay the vendor the contract amount
of 50 million afghanis. This also increased opportunity for kickbacks, as a paying agent
could draw cash from the finance office at a higher exchange rate, use the higher
exchange rate to pay the vendor more than the contract price, and receive a kickback
from the vendor for part of the exchange rate difference. If USCENTCOM and
USFOR-A personnel wrote and paid contracts in the same currency, this issue could be
mitigated.

The foreign currency fluctuation risk related to contracts awarded in U.S. dollars but paid
in afghanis was not limited to cash payments made by paying agents. A company could
wait for a favorable exchange rate before submitting
invoices for payment. For example, in January 2009,            Because of the favorable
the Army made a contract payment by electronic                exchange   rate at the time of
funds transfer of 584 million afghanis ($11 million).        payment … the Army paid the
Because of the favorable exchange rate at the time of       Afghanistan   vendor 24 million
payment in January 2009, the Army paid the                  afghanis  ($487,000)   more than
Afghanistan vendor 24 million afghanis ($487,000)16             the original terms of the
more than the original terms of the contract. 
                         contract.
According to the DoD FMR, when the exchange rate fluctuation causes a difference 

between the obligation amount and the liquidation (payment) amount, the difference 

should be recorded in a foreign currency fluctuation account and not paid to the vendor. 


The issue of a foreign currency fluctuation can also have the reverse effect if the foreign 

currency exchange rate is less favorable. For example, U.S. Army Finance Management 

Command has received numerous complaints from Afghanistan vendors that the Army 

underpaid them according to the original terms of the contract. Some contracts stipulate 

an exchange rate of 50 afghanis to $1. This could create the expectation that the 

Afghanistan vendor would receive that exchange rate at the time of payment. By writing 

the contract in the currency it will be paid, USFOR-A officials can avoid these 

complaints. 





16
  This afghani-US$ exchange is based on the foreign currency exchange rate when the obligation
originated.


                                                  29


Limited Federal and DoD Guidance on Contracting
Using Foreign Currency
Federal and DoD guidance on contracting using foreign currency does not ensure that
contracting personnel write contracts in the currency in which the vendor will receive
payment.

Federal Guidance on Foreign Currency Contracting
Federal guidance concerning the use of foreign currency in contracting is contained in
FAR part 25.1002. However, this guidance is limited to the use of foreign currency
valuation in the solicitation process and does not address payments.

DoD Guidance on the Use of Foreign Currency
DoD guidance concerning the use of foreign currency for contracting in Afghanistan is
contained in the CENTCOM Contracting Command Acquisition Instruction. In addition
to stating that USCENTCOM will follow FAR 25.1002 in its entirety, on August 2, 2010,
the C-JTSCC updated the Acquisition Instruction to require contracting officials to award
contracts with Afghanistan vendors in afghanis. Prior to this guidance, contingency
contract payments made in foreign currency were based on contracts written in U.S.
dollars, forcing disbursing offices to exchange currency using current rates. Although the
CENTCOM Contracting Command Acquisition Instruction states that contracts should be
written and paid in afghanis for Afghanistan vendors, it does not apply to
non-Afghanistan vendors. For the period we reviewed, all contract payments made in
foreign currency were based on contracts written in U.S. dollars. We addressed this issue
to the Commanding Generals of USCENTCOM and USFOR-A in our November 10,
2010, memorandum.

High Risk of Improper Payments
As a result of the lack of Federal or DoD guidance over foreign currency payments
impacted by fluctuating exchange rates, USCENTCOM and USFOR-A have a high risk
of embezzlement of funds by disbursing officials, kickbacks, and overpayments to the
Afghanistan vendors. The absence of a requirement to write all contracts in the currency
in which the vendors will receive payment also creates a greater risk of underpayment to
the foreign vendors, which could result in a negative image of coalition forces. Detection
of illicit gains is difficult because, with fluctuating exchange rates, vendors may not be
aware of the amount of their entitlement. This lack of knowledge or understanding
creates opportunities to defraud vendors. In addition, paying agents can manipulate
supporting documentation so that they clear their liability with the finance offices.

While we did not identify specific cases of fraud, exchange rate fraud has occurred in the
past in Afghanistan. For example, an Army Captain in Kandahar was convicted of theft,
money laundering, and income tax evasion because he manipulated currency rate
fluctuations between U.S. dollars and afghanis and skimmed $400,000 by adjusting his
currency loss account to make it look balanced. We are working with the Defense
Criminal Investigative Service because of the suspicious and potentially fraudulent nature
of payments on contracts that were awarded and paid in different currencies.



                                           30


USCENTCOM Partially Addressed Auditor Concerns
Due to our concerns related to foreign currency payments, on November 10, 2010, we
issued a memorandum to the Commanding Generals of USCENTCOM and USFOR-A
describing our concerns and suggesting that action be taken to mitigate the risks related to
foreign currency fluctuations. (See Appendix G for this memorandum and the
CENTCOM Contracting Command response to the memorandum.) Specifically, we
suggested that the C-JTSCC revise its Acquisition Instruction to require that contracts be
written in the currency in which the vendors will receive payment. We also suggested
that USCENTCOM officials review new contracts to ensure compliance with the updated
guidance and, for contracts predating the policy update, either pay the vendor in the
currency specified in the contract or modify the contracts to establish the local currency
amount that the vendor will be paid.

On November 29, 2010, the Director of Operations, CENTCOM Contracting Command,
responded to our memorandum. He concurred with the three suggested actions and
identified recent policy updates and procedures, which he stated addressed the suggested
actions. Although we agree with the revisions included in the policy updates and
procedures, we do not agree that the revisions meet the intent of our suggested actions.
Specifically,

    		 The Director responded to our suggestion to update the Acquisition Instruction to
        require writing contracts in the currency in which the vendors will receive
        payment by stating that the November 2010 update to the CENTCOM
        Contracting Command Acquisition Instruction requires payment in host nation
        currency. However, this update still does not require that contracts be written in
        host nation currency. Therefore, contracts can still be written and paid in
        different currencies and can result in overpaying or underpaying contracts. 

     		 The Director responded to our suggestion that USCENTCOM write and pay
         contracts in the same currency by stating that the CENTCOM Contracting
         Command only administers CERP contacts over $500,000 and provided
         procedures for reviewing these contracts for compliance. He added that existing
         CERP contacts over $500,000 specify invoice and payment terms and that
         DFAS-Rome pays these contracts in accordance with these terms. However,
         since most CERP contracts are under $500,000, this plan of action has limited
         benefits of ensuring new or existing CERP contracts comply with the
         Acquisition Instruction policy.

Therefore, we are recommending that the C-JTSCC officials revise the Acquisition
Instruction to require that contracting personnel write contracts in the currency in which
the vendors will receive payment. In addition, USCENTCOM officials should establish
reviewing procedures to ensure USCENTCOM personnel write and pay new and existing
contracts in the same currency, including CERP contracts under $500,000.




                                            31


Recommendations, Management Comments, and
Our Response
D.1. We recommend the CENTCOM-Joint Theater Support Contracting
Command revise the CENTCOM Contracting Command Acquisition Instruction to
require that contracting personnel write contracts in the currency in which the
vendors will receive payment for contracts over and under $500,000.

CENTCOM-Joint Theater Support Contracting
Command Comments
The C-JTSCC Chief of Staff neither agreed nor disagreed, but stated that C-JTSCC
revised the C-JTSCC Acquisition Instruction in November 2010 to include the
requirement to write contracts in the currency in which the vendors would receive
payment for contracts over and under $500,000. Specifically, the Chief of Staff cited C-
JTSCC Acquisition Instruction, Part 32, and Subpart 32.1106(b), which states “All
contracts and purchase orders awarded to host nation (Afghan) vendors shall be awarded
and paid in Afghani via electronic funds transfer to a local (Afghani) banking institution.”

Our Response
The C-JTSCC Chief of Staff comments were nonresponsive. The November 2010
version of the C-JTSCC Acquisition Instruction does not state that all contracts with host
nation or external vendors will be written and paid in the same currency. The
requirement that the Chief of Staff quoted from C-JTSCC Acquisition Instruction,
subpart 32.1106(b), only applies to host nation vendors that can receive EFTs. It states
that only Afghanistan vendors are awarded and paid in host nation currency and that all
other contracts and purchase orders may be awarded and paid in U.S. currency. In
addition, subpart 32.1106(e)(3) states that all cash payments will be made in host nation
currency. As a result, the Acquisition Instruction still allows contracting and disbursing
officers to write contracts in one currency and pay in another. We request that the Chief
of Staff provide comments on the final report that address revising the Acquisition
Instruction to explicitly require that contracts be written and paid in the same currency.

D.2. We recommend the Commanding General, U.S. Central Command, establish
procedures to review new and existing contracts to ensure that they are written and
paid in the same currency, including Commander’s Emergency Response Program
contracts under $500,000.

U.S. Central Command Comments
USCENTCOM agreed in principle with the recommendation and stated that the absence
of a requirement to write all contracts in the currency in which the vendor would receive
payment created a high risk of embezzlement, kickbacks, overpayments, and
underpayments. USCENTCOM deferred corrective actions to the executive agent for
CERP, the Secretary of the Army.




                                            32


Our Response
The USCENTCOM comments were nonresponsive. We do not think that redirecting this
recommendation to the Secretary of the Army addresses the need for quality control over
CENTCOM contracting processes to ensure that contracts are written and paid in the
same currency. This issue is not unique to CERP, but rather, affects all foreign currency
contracts. We request that USCENTCOM reconsider its position and provide comments
on the final report.




                                           33


Appendix A. Audit Scope and Methodology
We conducted this performance audit from September 2010 through July 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.
USFOR-A processed more than 8,509 CERP transactions, totaling $486 million, between
October 2008 and February 2010. The universe included transactions from the Army,
U.S. Marine Corps, and U.S. Army Corps of Engineers in Afghanistan. Our statistical
sample approach (see Appendix C) resulted in the selection of 251 CERP payment
transactions from the universe of 8,509 transactions. This sample was used in Finding A
to determine whether CERP data in CIDNE and CERP Checkbook were accurate and
complete.
Table A-1 shows a breakout of the statistically sampled CERP payment transactions by
agency in the system of record. We tested the reliability of the CERP payment
transactions information by comparing 251 hardcopy vouchers and supporting
documentation to project data in CIDNE and CERP Checkbook. We could not assess
reliability for 14 of these CERP payment transactions because USFOR-A could not locate
CIDNE data for the 14 sample items.
               Table A-1. Statistical Sample of Army CERP Payments
                                                Number of
               Agency System                                    Amount
                                                Payments
  Army Deployable Disbursing System                   121                 $6,950,591

  Army STANFINS Redesign One                          80                   1,228,539

  Corps of Engineers Financial
                                                      30                   1,516,160
  Management System

  U.S. Marine Corps Deployable
                                                      20                     289,508
  Disbursing System

   Total                                              251                 $9,984,798

We analyzed the sampled transactions to determine the reliability of the data recorded in
CIDNE and CERP Checkbook. We completed a review of the sample transactions to
determine whether key data elements, such as project location, project category, amount
disbursed, and local national classification, were accurate, complete, and consistent.
In Finding B, we identified and evaluated 208 CERP projects with outstanding
obligations from FY 2007 through FY 2009. To identify these projects, we evaluated and


                                           34 

compared the data in CIDNE, CERP Checkbook, and ODS. After matching the project
data, we identified whether the project’s status in CIDNE was designated as terminated,
completed, nominated, or obligated. For the CERP projects designated as “terminated”
or “completed” in CIDNE, we reviewed current ODS data to determine whether the
projects still had funding available that should be deobligated. We also reviewed ODS
data for projects designated in CERP Checkbook as “open” to identify any projects that
had limited financial activity for an extended period. We considered this an indicator that
the projects should potentially be closed and the remaining funds be deobligated. Finally,
we reviewed CERP Checkbook for projects that had negative unliquidated obligations to
identify potential improper payments.
In Finding C, the advance payment universe was composed of payment voucher copies
and payment voucher data records obtained during the audit. This universe was actually
a number of smaller universes that related to other potential test steps and included
disbursement records from FY 2008 through FY 2010. We manually reviewed paper
voucher copies and used audit software to select 30 CERP projects that potentially had
advance payments made against them. We examined CERP contracts, invoices,
vouchers, receiving reports, related payments, and accounting records to determine
whether the projects selected contained advance payments to CERP contractors and
vendors.
In Finding D, we reviewed 15,458 cash payments made in afghanis to vendors. We
reviewed contracts and guidance including the FAR, DoD FMR, and CENTCOM
Acquisition Instructions concerning contracting and payments in foreign currency. We
evaluated whether contracts paid in foreign currency fluctuated based on exchange rates
from the time the obligation was recorded to when the payment was made.

Use of Computer-Processed Data
The objective of the audit was to assess the reliability of CERP data by determining
whether the data in CIDNE and CERP Checkbook were complete and accurate. We
found that USFOR-A did not maintain reliable CERP financial or project data in CIDNE
or CERP Checkbook. We assessed the reliability of CIDNE and CERP Checkbook data
by comparing the CERP data in these systems with data from STANFINS, Deployable
Disbursing System, Corps of Engineers Financial Management System, STANFINS
Redesign One, Corporate Electronic Document Management System, and Electronic
Document Access/Voucher Processing System. We validated data from these computer
systems by comparing the data to hardcopy documentation from the Corporate Electronic
Document Management System and Electronic Document Access/Voucher Processing
System related to the projects selected for review. We found the data in these systems to
be sufficiently reliable to accomplish our audit objectives.

Use of Technical Assistance
The Quantitative Methods Division provided technical assistance throughout the sample
selection process and provided a sample of transactions of CERP projects to test for
reliability. See Appendix C for detailed information about the work performed by the
Quantitative Methods Division.


                                            35


Appendix B. Prior Audit Coverage of the
Afghanistan Commander’s Emergency
Response Program
During the last 5 years, the Government Accountability Office (GAO), Department of
Defense Inspector General (DoD IG), the Army Audit Agency (AAA), the Special
Inspector General for Iraq Reconstruction (SIGIR), and the Special Inspector General for
Afghanistan Reconstruction (SIGAR) have issued 19 reports discussing the CERP in
Afghanistan and Iraq. Unrestricted GAO reports can be accessed over the Internet at
http://gao.gov/browse/date/week. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/. Unrestricted SIGIR
reports can be accessed over the Internet at
http://www.sigir.mil/directorates/audits/auditReports.html. Unrestricted SIGAR reports
can be accessed over the Internet at http://www.sigar.mil/auditReports.asp.

GAO
GAO Report No. GAO-09-615, “Military Operations: Actions Needed to Improve
Oversight and Interagency Coordination for the Commander’s Emergency Response
Program in Afghanistan,” May 18, 2009
GAO Report No. GAO-08-736R, “Military Operations: Actions Needed to Better Guide
Project Selection for Commander’s Emergency Response Program and Improve
Oversight in Iraq,” June 23, 2008

GAO Report No. GAO-07-699, “Military Operations: The Department of Defense’s Use
of Solatia and Condolence Payments in Iraq and Afghanistan,” May 23, 2007

DOD IG
DoD IG Report No. D-2007-064, “Implementation of the Commanders’ Emergency
Response Program in Afghanistan,” February 28, 2007

Army Audit Agency
AAA Report No. A-2011-0020-ALL, “Commander’s Emergency Response Program U.S.
Forces-Afghanistan,” November 16, 2010 (FOUO)

AAA Report No. A-2006-0090-ALE, “Follow-up II of the Commanders’ Emergency
Response Program and Quick Response Fund,” March 31, 2006

AAA Report No. A-2005-0332-ALE, “Follow-up Commanders Emergency Response
Program and Quick Response Fund,” September 30, 2005

AAA Report No. A-2005-0173-ALE, “Commanders Emergency Response Program and
Quick Response Fund,” May 2, 2005


                                          36


SIGIR
SIGIR Report No. SIGIR-11-012, “Commander’s Emergency Response Program
Obligations Are Uncertain,” January 31, 2011

SIGIR Report No. SIGIR-10-013, “Commander’s Emergency Response Program:
Projects at Baghdad Airport Provided Some Benefits, but Waste and Management
Problems Occurred,” April 26, 2010

SIGIR Report No. SIGIR-10-003, “Iraq Commander’s Emergency Response Program
Generally Managed Well, but Project Documentation and Oversight Can Be Improved,”
October 27, 2009

SIGIR Report No. SIGIR-09-026, “Commander’s Emergency Response Program: Hotel
Construction Completed, But Project Management Issues Remain,” July 26, 2009

SIGIR Report No. SIGIR-09-025, “Commander’s Emergency Response Program:
Muhalla 312 Electrical Distribution Project Largely Successful,” July 26, 2009

SIGIR Report No. SIGIR-08-006, “Commander’s Emergency Response Program in Iraq
Funds Many Large-Scale Projects,” January 25, 2008

SIGIR Report No. SIGIR-07-006, “Management of the Commander’s Emergency
Response Program in Iraq for Fiscal Year 2006,” April 26, 2007

SIGIR Report No. SIGIR-05-025, “Management of the Commander’s Emergency
Response Program for Fiscal Year 2005,” January 23, 2006

SIGIR Report No. SIGIR-05-014, “Management of the Commander’s Emergency
Response Program for Fiscal Year 2004,” October 13, 2005

SIGAR
SIGAR Report No. 11-7, “Commander’s Emergency Response Program in Laghman
Province Provided Some Benefits, but Oversight Weaknesses and Sustainment Concerns
Led to Questionable Outcomes and Potential Waste,” January 27, 2011

SIGAR Report No. 09-5, “Increased Visibility, Monitoring, and Planning Needed for
Commander’s Emergency Response Program in Afghanistan,” September 9, 2009




                                         37


Appendix C. Statistical Sampling Methodology
Quantitative Plan
Objective
To determine whether the internal controls over CERP payments made to support
operations in Afghanistan were adequate. As part of the audit objective, we used
statistical sampling to project the number and the rate of errors in the population.

Population
The CERP disbursement dataset consisted of 8,509 transactions between October 2008
and January 2010. We obtained the data from the following systems: the Deployable
Disbursing System (U.S. Marine Corps Disbursing Station 6092 and Army Disbursing
Station 8830), STANFINS Redesign One, and the Corps of Engineers Financial
Management System.

Measures
The measures of the sampling plan for this project were the number of errors in the audit
universe.

Parameters
We used a 90-percent confidence interval.

Sample Plan
Stratified Sample Design
We used a stratified sampling design for this project. We determined the appropriate
sample size for each stratum based on our calculations, the What If Analysis we
performed, and our professional judgment. We drew samples without replacement from
each stratum using the random function tool in EXCEL and provided the random samples
to the audit team. The stratum and the sample sizes are in Table C-1. The statistical
analysis and interpretation are in Table C-2.

                      Table C-1 Audit Stratum and Sample Sizes
                   Stratum Name                         Population Size      Sample Size

 Army Deployable Disbursing System                            5,407                121
 U.S. Marine Corps Deployable Disbursing System                 117                    20
 Army STANFINS Redesign One                                   2,620                    80
 Corps of Engineers Financial Management System                 365                    30
  Total                                                       8,509                251




                                             38


                     Table C-2. Statistical Analysis and Interpretation
                                                  Lower         Point     Upper
                       Item                       Bound        Estimate   Bound

Data Could Not Be Located in CIDNE                  174           415      657

Total with Error                                   5,691         6,157    6,623

CERP Checkbook Category Not Equal to
Payment Documentation                               615           962     1,308

CIDNE Not Consistent With CERP Checkbook           1,493         1,926    2,359

Category Not Updated in CIDNE or CERP               238           499      761
Checkbook (Bulk Funds)

CIDNE Location Not Equal to Payment                 87            310      533
Documentation

CIDNE Location Incomplete                           88            304      520

CERP Checkbook Location Not Equal to                436           754     1,071
Payment Documentation

CIDNE Location Not Consistent With CERP
Checkbook                                           226           489      752

CIDNE Amount Spent Incomplete                      4,162         4,660    5,157

CIDNE Local National Benefit Incomplete            2,572         3,011    3,449

CIDNE Local National Employed Incomplete           2,337         2,769    3,202


  Total With Category Error                        1,886         2,349    2,811


  Total With Location Error                        1,198         1,604    2,009


  Total With Local National Error                  2,688         3,133    3,578


Note: 90-percent confidence level.




                                            39
Appendix D. CERP Project Categories
The following list from the DoD Regulation 7000.14-R, “DoD Financial Management
Regulation” volume 12, chapter 27, section 270104, details the categories eligible for
CERP funding in Afghanistan. The definitions for each category are from the USFOR-A
Publication 1-06, “Money As A Weapon System–Afghanistan,” December 2009.

    A. Agriculture. 		Projects to increase agricultural production or cooperative 

       agricultural programs. This includes irrigation systems.



                                	
    B. Battle Damage Repair. 	Projects   to repair, or make payments for repairs, of
       property damage that results from U.S., coalition, or supporting military
       operations and is not compensable under the Foreign Claims Act.

    C. Civic Cleanup Activities. Projects to clean up public areas; area beautification.
                                	
    D. Civic Support Vehicles. 	Projects  to purchase or lease vehicles by
       public/government officials in support of civic and community activities.
                                 	
    E. Condolence Payments. 	Payments      to individual civilians for the death or
       physical injury resulting from U.S., coalition, or supporting military operations
       not compensable under the Foreign Claims Act.
    F. Economic, Financial, and Management Improvements. P
                                                         	 rojects to improve
       economic or financial security.

    G. Education. 	Projects
                    	       to repair or reconstruct schools or to purchase school
       supplies or equipment.

    H. Electricity. 	Projects
                    	         to repair, restore, or improve electrical production,
       distribution, and secondary distribution infrastructure. Cost analysis must be
       conducted so the village or district may collect revenues to ensure operation and
       maintenance of the system for long-term use.

    I.		 Food Production and Distribution. Projects to increase food production or
         distribution processes to further economic development.

    J.		 Former Detainee Payments. Payments to individuals upon release from
         coalition (non-theater internment) detention facilities.

    K. Health Care. 	Projects
                      	       to repair or improve infrastructure, equipment, medical
       supplies, immunizations, and training of individuals and facilities with respect to
       efforts made to maintain or restore health especially by trained and licensed
       professionals.




                                            40


                     	
L. Hero Payments. 	Payments      made to the surviving spouses or next of kin of
   Afghanistan defense or police personnel who were killed as a result of U.S.,
   coalition, or supporting military operations.

M. Other Urgent Humanitarian or Reconstruction Projects. 	Projects
                                                              	        to repair
   collateral damage not otherwise payable because of combat exclusions or
   condolence payments. Other urgent humanitarian projects not captured under
   any other category.

N. Protective Measures. 	Projects
                            	        to repair or improve protective measures to
   enhance the durability and survivability of a critical infrastructure site (oil
   pipelines, electric lines, etc.).

O. Repair of Civic and Cultural Facilities. 	Projects
                                            	         to repair or restore civic or
   cultural buildings or facilities.

P. Rule of Law and Governance. 	Projects to repair government buildings such as
   administrative offices, or courthouses.

Q. Temporary Contract Guards for Critical Infrastructure. P       	 rojects including
   Sons/Daughters of Iraq and other projects to guard critical infrastructure,
   including neighborhoods and other public areas.

R. Telecommunications. 	Projects
                            	         to repair or extend communication over a
   distance. The term telecommunication covers all forms of distance and/or
   conversion of the original communications, including radio, telegraphy,
   television, telephony, data communication, and computer networking. Includes
   projects to repair or reconstruct telecommunications systems or infrastructure.

S.		 Transportation. Projects to repair or restore transportation to include
     infrastructure and operations. Infrastructure includes the transport networks
     (roads, railways, airways, canals, pipelines, etc.) that are used, as well as the
     nodes or terminals (such as airports, railway stations, bus stations, and seaports).
     The operations deal with the control of the system, such as traffic signals and
     ramp meters, railroad switches, air traffic control, etc.

T. Water and Sanitation. 	Projects
                            	         to repair or improve drinking water availability,
   to include purification and distribution. Building wells in adequate places is a
   way to produce more water, assuming the aquifers can supply an adequate flow.
   Other water sources such as rainwater and river or lake water must be purified for
   human consumption. The processes include filtering, boiling, distillation among
   more advanced techniques, such as reverse osmosis. The distribution of drinking
   water is done through municipal water systems or as bottled water. Sanitation, an
   important public health measure that is essential for the prevention of disease, is
   the hygienic disposal or recycling of waste materials, particularly human
   excrement.



                                         41


Appendix E. CERP Project Status Report
The CERP Project Status Report contains the following information as required by the
DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 12,
chapter 27, section 2704A.

   1.		 Unit.
   2.		 Project Document Reference Number/STANFINS Document Reference Number.
   3.		 Project Category from the Under Secretary of Defense (Comptroller).
   4.		 Project Title.
   5.		 Province where project is located.
   6.		 Description (two or three sentences that describe the project for a person not
        familiar with it). For micro-grant projects, list the name and type of business. For
        Commander’s small-scale projects sourced out of bulk funding, capture the initial
        bulk-funded amount under the “other urgent and humanitarian or reconstruction
        category.” Once the bulk fund is completely obligated/disbursed, replace with
        actual project descriptions for each completed project using the appropriate CERP
        categories.
   7.		 Total amount committed, obligated, and disbursed for the project.
   8.		 Obligation date. NOTE that once projects are identified, if they are canceled
        during the same fiscal year, they remain on the report with a note that they were
        canceled and the obligated amount adjusted to $0.
   9.		 For projects costing $50,000 or more, provide justification stating how the project
        supports the purpose of CERP; such as, justification for the project.
   10. Current status of the project and projected completion date or when the project
       was completed, noting also whether the project was finished or terminated for
       other reasons.
   11. For projects $50,000 or more, identify the date when project is/will be transferred
       to the Iraq or Afghanistan government. Annotate with “yes” to indicate the
       government’s commitment to sustain the project, or “no” to indicate no agreement
       for sustainment. Details of any indicated sustainment must be included in the
       project files.
   12. Number of local citizens estimated to directly benefit from project, if available.
           a. Number of local citizens estimated to be employed by the project.
           b. Number of local citizens estimated to be affected by the project.




                                             42


Appendix F. Unliquidated Obligations
Memorandum and Management Response




                  43


44


45


46


47


48


49


50


51


52


53


54


55


56


57


Appendix G. Foreign Currency Fluctuation 

Memorandum and Management Response






                     58


59


60


61


62


Appendix H. CERP Roles
and Responsibilities
USFOR-A J-8 (Resource Management) – Oversees resource management, fund
certification, associated recordkeeping, and CERP reporting. USFOR-A J-8 provides
financial oversight for CERP. USFOR-A J-8 develops annual CERP funding
requirements based on the theater task forces’ input and the USFOR-A Commander’s
guidance. USFOR-A J-8 allocates funds and monitors theater task force commitments,
obligations, and disbursements.

USFOR-A J-9 (Civil-Military Operations) – Is the overall program coordinator.
USFOR-A J-9 supports the interagency review board for CERP projects as well as CERP
information management in CIDNE. USFOR-A J-9’s primary responsibilities are to
ensure consistency between functional program managers, identify timelines for program
updates, and act as a liaison with other humanitarian assistance agencies to ensure
coordination of effort. USFOR-A J-9 will ensure Commanders and program managers
develop tangible performance metrics to measure effectiveness of projects. Additionally,
they will develop theater-wide guidance on how to appropriately manage CERP projects
from initiation to completion and transfer to the Afghanistan government. Finally,
USFOR-A J-9 is responsible for ensuring that project limitations are adhered to.

Project Managers – Manage CERP projects from project design, validation, and
execution through completion and sustainment. Management of CERP projects is their
primary duty. Every CERP project has an assigned project manager and each project
manager can have only 10 active projects at one time. A project manager functions as a
contracting officer’s representative to oversee the project and ensure contracting
requirements are met. Theater-level guidance requires commanders to identify and
nominate contracting officer’s representatives prior to contract award. The contracting
officer’s representatives must be the rank of E-7 (a sergeant first class in the Army) or
above (or civilian equivalent). This role was created by USFOR-A.

Project Purchasing Officers (PPOs) – Procure goods and services in support of CERP
operations less than $500,000. The PPOs in Afghanistan may not have more than
20 active projects at one time. For small-scale, non-construction projects (less than
$25,000), the PPO can act as the project manager and perform the project manager’s
responsibilities. The PPO must be the rank of an E-6 (staff sergeant in the Army) or
above (or the civilian equivalent). PPO’s receive delegated contracting authority from a
contracting officer.

Paying Agents (PA) – Make payments to vendors for goods received or services rendered
at the approval of the project manager or PPO. They are the only personnel authorized to
disburse cash funds. The PAs are only required when cash payments are being made.
When electronic funds transfer is feasible, the PPO obtains the banking information
necessary for the unit’s Finance Office to complete the electronic funds transfer payment.
The cash payment process is separate and distinct from the personnel who award a
contract, thus decreasing chances of fraud and abuse. The PAs must be the rank of an


                                            63


E-7 or above (or civilian equivalent). This responsibility can be delegated down to an
E-6 by the Joint Sustainment Command-Afghanistan Commander or Chief of Staff.

Resource Manager (RM) – Certifies the availability of funds, ensures proper resource
management and fiscal controls, and monitors unliquidated obligations to ensure
100-percent disbursement and the deobligation of unexecuted funds in order to maintain
an accurate accounting system. The RM also tracks all CERP projects via the CERP
Checkbook and updates the project’s status as changes occur. RMs must also ensure that
proper documentation is maintained for all funded CERP projects.

CERP Program Manager – A program manager is required for every O-5-level U.S.
Commander and above who is executing CERP funds. The program managers manage
the CERP program for their respective unit, ensure regulations and policies are adhered
to, and review all projects prior to approval to ensure they are accurate, complete,
measurable, and meet the Commander’s intent. The CERP project manager or the
purchasing officer is responsible for inputting new CERP projects into CIDNE and
updating the status of these projects as changes occur, or at least monthly. The CERP
program manager is responsible for ensuring all data inputted into CIDNE are accurate
and complete prior to processing the project for approval. Additionally, the program
manager ensures that the CERP project is in accordance with and not in violation of the
CERP guidelines outlined in DoD FMR 7000.14-R, volume 12, chapter 27. The program
manager coordinates CERP requirements through the unit’s functional staff and with
higher level command and manages the unit’s CERP budget and the CERP Checkbook.
The CERP program manager ensures that the unit’s commitments and obligations do not
exceed allocated funds and validates that the funds committed and obligated are only for
the project for which they were approved. Additionally, the program manager conducts
CERP refresher training semiannually for all appointed project managers, purchasing
officers, and paying agents. Finally, the CERP program manager is the liaison between
the subordinate units and higher headquarters in relation to all CERP projects executed
under their Commander’s authority.
                                       CERP Triad for Afghanistan
                                                      Project Manager
                                    Serves as a contracting officer representative, inspects
                                     progress of project, authorizes vendor payment, and
                                                    updates CERP Report




                                                     COMMANDER
                                                 Responsible for the overall
                                                   management of CERP
  Project Purchasing Officer                                                                          Paying Agent
Contracts for goods and services;                                                              Disburses funds to contractors,
      closes out contracts                                                                        vendors, or individuals





    From DoD Review of the Commander’s Emergency Response Program Report to Congress.


                                                             64 

Appendix I. CERP Reporting Diagram 





    *OSD(C) stands for Office of the Under Secretary of Defense (Comptroller).    




                                                65


Appendix J. Summary of Potential
Monetary Benefits
  Recommendation     Type of Benefit         Amount of        Account
                                               Benefit
Corrective action   Economy and           $16.7 million   Operation and
underway            Efficiency. The                       Maintenance,
                    Government could                      Army
                    better use these
                    funds for needed
                    projects.
Corrective action   Economy and           $1.7 million    Operation and
underway            Efficiency. The                       Maintenance,
                    Government could                      Army
                    better use these
                    funds for needed
                    projects.




                                   66


U.S. Central Command and U.S. Forces-Afghanistan
Comments




                   Click to add JPEG file




                                  67
Click to add JPEG file




               68
Click to add JPEG file




               69
Click to add JPEG file




               70
                         Final Report 

                          Reference






                         Revised




Click to add JPEG file
Click to add JPEG file




               72
Click to add JPEG file




               73
